<html>
<title> - OUTGUNNED AND OUTMANNED: LOCAL LAW ENFORCEMENT CONFRONTS VIOLENCE ALONG THE SOUTHERN BORDER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




OUTGUNNED AND OUTMANNED: LOCAL LAW ENFORCEMENT CONFRONTS VIOLENCE ALONG 
                          THE SOUTHERN BORDER

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                AND THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2006

                               __________

                           Serial No. 109-85

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

26-291 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel

                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                  Cindy Blackston, Professional Staff

          Nolan Rappaport, Minority Counsel<greek-l>F0486 deg.
        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman
DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel
           Elizabeth Sokul, Special Counsel for Intelligence
                 and Homeland Security, Full Committee
                 Jason Cervenak, Full Committee Counsel
                     Bobby Vassar, Minority Counsel



                            C O N T E N T S

                              ----------                              

                             MARCH 2, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     4
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     6

                               WITNESSES

Sheriff Leo Samaniego, El Paso County Sheriff's Office, El Paso, 
  Texas
  Oral Testimony.................................................     9
  Prepared Statement.............................................    10
Sheriff Larry Dever, Cochise County Sheriff's Office, Bisbee, 
  Arizona
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15
Sheriff Todd Garrison, Dona Ana County Sheriff's Office, Las 
  Cruces, New Mexico
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
Sheriff Sigifredo Gonzalez, Jr., Zapata County Sheriff's Office, 
  Zapata, Texas
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................     5

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress from the State of California........    53
Prepared Statement of the Honorable Darrell Issa, a 
  Representative in Congress from the State of California........    54
Prepared Statement of the Honorable Louie Gohmert, a 
  Representative in Congress from the State of Texas.............    54
Prepared Statement of Vivian Juan-Saunders, Chairwoman, Tohono 
  O'Odham Nation of Arizona......................................    55

 
OUTGUNNED AND OUTMANNED: LOCAL LAW ENFORCEMENT CONFRONTS VIOLENCE ALONG 
                          THE SOUTHERN BORDER

                              ----------                              


                        THURSDAY, MARCH 2, 2006

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,

                                  and

                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 12:04 p.m., 
in Room 2237, Rayburn House Office Building, the Honorable John 
Hostettler (Chairman of the Subcommittee on Immigration, Border 
Security, and Claims) presiding.
    Mr. Hostettler. The Subcommittees will come to order.
    Good afternoon. At the outset, I want to thank Chairman 
Coble, Ranking Member Scott, and the Members of the 
Subcommittee on Crime, Terrorism, and Homeland Security for 
joining the Immigration, Border Security, and Claims 
Subcommittee for this important hearing.
    Today's four witnesses represent the three States that 
together span most of the southern border with Mexico. Each 
witness is an experienced sheriff and each is faced with the 
growing difficulty of enforcing the law in communities that are 
being subjected to a growing level of violent crime by illegal 
aliens. Some of these illegal aliens are just moving through on 
their way to richer pastures further into the interior of the 
United States. Others are professional criminals who reside 
south of the border and operate criminal enterprises that 
exploit the weak security all along the southern borders of 
these three States.
    In the past year, there has been a growing threat from 
military-type units providing armed escorts to criminal drug-
smuggling gangs across the border from Mexico. In the past 3 
months, there have been at least two incidents where heavily 
armed and uniformed units have appeared on the banks of the Rio 
Grande River east of El Paso with the apparent goal of 
intimidating U.S., local, and Federal law enforcement officials 
from pursuing narcotics smugglers fleeing back home across the 
border. In both instances, U.S. law enforcement had to back 
away to protect their lives because they were outgunned and 
outmanned. The good news is that no one was killed in these 
incidents. The bad news is that no one in these criminal gangs 
has been apprehended in Mexico, and they have learned from 
experience that they can win the day by using intimidating 
force.
    In the face of photographs taken by local sheriff's 
deputies at the Hudspeth County incident on January 23rd, the 
Mexican Government launched an investigation as to whether 
there had been local Mexican military units involved in 
providing the muscle. The Mexican Secretary of Defense released 
a report on the investigation on February 3, which identified 
the primary narcotics smugglers by name and stated that there 
were no Mexican military units involved.
    Chihuahua State has at least one battalion-strength unit 
garrisoned near Juarez in the immediate vicinity of the Rio 
Grande Valley. Military units regularly carry out field 
maneuvers and training exercises throughout the State and, 
especially, in-country along the border. Consequently, the 
local citizenry are used to seeing men in uniform carrying 
automatic weapons, riding in Humvees to and from field 
exercises. So it is certainly within the realm of reason that 
narcotics smugglers could use local thugs as armed escorts, 
equip them to appear as soldiers, and transport them in 
camouflaged Humvees so they would not look like bandits. That 
is essentially what the Mexican Secretary of Defense reported, 
stating that Jose Rodolfo Escajeda, identified in the photos 
taken by the U.S. deputies, may own six Humvee automobiles.
    I remain puzzled as to how a desperado can live in the 
vicinity of Juarez with six Hummers, several equipped as patrol 
cars, and not be immediately located and apprehended. Juarez 
has a substantial municipal police force. There is an office of 
the Mexican drug enforcement agency, an office of the Mexican 
equivalent of the FBI known as the OFI. And, of course, I have 
already noted that there is a sizable military presence in the 
vicinity. Mexico allows the military to conduct police 
operations, and President Fox used the military forces several 
years ago to arrest crooked Mexican drug enforcement officials. 
How could there have been no apprehensions in Mexico with so 
many law enforcement organizations available?
    Besides the obvious narcotics charges for which there is 
clear photographic evidence, there should be substantial 
weapons charges the Mexican authorities could use to prosecute 
Mr. Escajeda. Mexico has among the most restrictive gun 
ownership and registration laws in the Western Hemisphere. So 
the presence of heavily armed men in support of smugglers from 
south of the border means one of three things: One, Mexican law 
enforcement is incapable of enforcing these gun laws or their 
narcotics laws. Two, Mexican authorities have other priorities 
than investigating, capturing, and prosecuting renegade border 
smugglers. Or three, renegades from the Mexican army were in 
fact moonlighting from their regular duties by guarding Mr. 
Escajeda and his haul of marijuana and there are those in 
authority in Mexico who do not want this revealed.
    I want to introduce a few facts that shed further light on 
this situation. There have been around 200 military incursions 
by Mexican military units into the United States since 1996. 
While many of these have been accidental, some of the 
incursions appear to have been in support of narcotics and/or 
human smuggling activities. Although the Mexican army is 
required by law to remain at least 5 kilometers south of the 
actual border, army units are located in the precise region 
where narcotics and human smugglers stage their border crossing 
activities. The low wages of Mexican soldiers make them 
susceptible to being recruited to facilitate and even guard 
contraband shipments. And the Mexican Government has 
demonstrated that it is increasingly unable to protect its own 
officials from assassinations and intimidation by border 
smugglers.
    How will we protect our law enforcement officials? That is 
the basis for our hearing today.
    At this time, I would like to yield to the Chairman of the 
Subcommittee on Crime, Terrorism, and Homeland Security, Mr. 
Coble, for an opening statement.
    Mr. Coble. I thank the distinguished gentleman from 
Indiana, Mr. Hostettler, his Ranking Member, the distinguished 
lady from Texas, and our distinguished Ranking Member Mr. 
Scott, I think, will be along. I appreciate, John, your 
agreeing to convene today's hearing.
    I am very concerned about the nexus between illegal 
immigration, drugs, and crime along the United States-Mexico 
border. It is impacting communities and law enforcement along 
the southwest border and could very well pose threats to 
national security.
    At our previous joint hearing, Mr. Chairman, on this topic, 
you will recall--which I had the privilege of chairing--we 
received testimony from several Federal law enforcement 
agencies having jurisdiction on the border. Today I am pleased 
to learn that we will receive testimony from local law 
enforcement who can provide another perspective on this 
situation.
    As a nation, it seems to me that we must embrace the fact 
that in order to successfully confront and defeat this scourge 
of violence, our Federal agencies must cooperate and coordinate 
with their respective State and local partners. We are all 
sensitive to the challenges facing local law enforcement, but 
those along our southwest border are dealing with an 
overwhelming situation. They are often confronted with a 
criminal element that presents a far superior force. And when I 
say ``superior force,'' I'm not suggesting a lack of dedication 
or a lack of bravery on our side or on your side, because we 
all know that our law enforcement people are second to none.
    On the border, our locals are routinely, I am told, Mr. 
Chairman, outmanned and outgunned. The ruthlessness and 
brazenness of these cartels and their enforcement arms, such as 
the Zetas and the MS-13, is appalling. I'm alarmed by the 
stories of Americans being kidnapped and taken across the 
border, indiscriminate and brutal killings where bodies are 
disposed of in oil barrels, and what appear to be units of the 
Mexican military aiding the drug cartels in some instances, I 
am told. I daresay this is a dire situation that may threaten 
our national security.
    At our previous hearing, Mr. Chairman and Ms. Jackson Lee, 
I noted, ``a very dangerous criminal element is at our doorstep 
and knocking.'' Now, it's bad enough to have a dangerous 
element imminently nearby. But when he's knocking on your door, 
that has a way of making your coffee taste real bad in a hurry. 
It now appears as if this criminal element is being joined by 
units of the Mexican military to aid in these operations. Just 
as we would not dispatch a sheriff's office to engage in a 
foreign military campaign, neither should we expect our local 
law enforcement to stand alone when confronting elements of the 
Mexican military, if in fact this is the case.
    I have been told that the Mexican Government is 
investigating the incursion that took place on January 23rd 
this year in Hudspeth County, and I hope they'll take this 
investigation seriously and take steps to ensure that this type 
of activity never happens again.
    In conclusion, Mr. Chairman, we may well be served by 
requiring our own Government agencies to conduct independent 
investigation to help corroborate the record and to get to the 
bottom of what has become routine practice and institute 
measures to prevent future occurrences. This is a concern of 
national sovereignty and territorial integrity that should not 
be delegated to another nation.
    Sheriffs, I join the Chairman in expressing thanks to you 
all for being here. I applaud your dedication and sacrifice to 
protecting your counties and the Nation. And I welcome you and 
look forward to the testimony, Mr. Chairman.
    Mr. Hostettler. At this time, the chair recognizes the 
gentlelady from Texas, the Ranking Member of the Subcommittee 
on Immigration, Border Security, and Claims, Ms. Jackson Lee, 
for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank the Chairman of the Crime Subcommittee and my Ranking 
Member, Mr. Scott, for your indulgence and cooperation, 
collaboration on this hearing.
    Let me also acknowledge the number of witnesses from Texas 
and let me take a moment of personal privilege to say how proud 
I am that out the pressing forward of this lonely journey, that 
in the effort to speak not only for the southern border in 
Texas, that you're speaking for America. Let me thank the 
Sheriffs Association as well and the leadership there.
    Let me acknowledge that although Secretary Chertoff was 
down with other Members of Congress, whom you met first, let it 
be known that others of us have walked along the border a way 
long time ago, along the El Paso border down in the area where 
you are, the New Mexico border, and seen some of the stress 
that was perpetrated. And we obviously believe that this is an 
important step forward that you're making.
    Let me also acknowledge my fellow Texas Members as well 
as--I knew that Mr. Cuellar was here in the room; I'm not sure 
if he still is. But we have been focused on this issue and we 
are delighted with your presence.
    Let me also say, as we are going off to vote, I am headed 
off to the Gulf region. I'm hoping that I'll be able to return. 
We are taking a bipartisan delegation down to Mississippi, 
Alabama, and Louisiana in a few minutes.
    But this challenge that we have before us is really to 
address the two concepts of this hearing, outgunned and 
outmanned--but not without integrity and determination. 
According to the Border Patrol statistics from fiscal year 2001 
through the end of fiscal year 2005, there have been 144 
documented incursions into the United States. The Border 
Patrol's definition of an incursion is an unauthorized crossing 
of the international border by individuals who are or appear to 
be Mexican Government personnel, whether intentional or not.
    So this is not, if you will, a myth. A well-publicized 
incident occurred last month in Hudspeth County, Texas. On 
January 23, 2006, deputy sheriffs from Hudspeth County 
encountered three vehicles thought to be carrying marijuana in 
the vicinity of the border with Mexico. They pursued the 
vehicles to the Rio Grande River, where one of them got stuck 
in the river. As they approached the river, they observed a 
military-style Humvee with a machine gun and what the deputies 
believed to be Mexican soldiers armed with military weapons. A 
second Humvee arrived and uniformed men were observed getting 
out and taking positions east and west along the Mexican side 
of the river, hiding behind heavy, thick brush. Then 10 to 15 
men dressed in civilian clothes appeared.
    Let me just by way of summary say that--Mr. Chairman, I'm 
going to ask that my entire statement be put in the record.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. And I am going to try and summarize it.
    This incident, as I said, was an example of already 144 
responding. I think it should be noted that those of you who 
are here who are sheriffs have said, in meetings that I've been 
in, that you've worked extensively without Border Patrol agents 
and would like and hope that we will have a collaborative 
effort. I hope this hearing--of which I'm very proud to have 
instigated after we met and I promised you that we would have a 
meeting and should have a meeting in Judiciary, and let me 
thank all of my colleagues for consenting to such--will be a 
collaboration between homeland security, the issues of 
immigration, the issues of drug smuggling, the issues of gun 
running, the issues of money laundering, and the issues of 
violence. That's what you've been contending with.
    We need all energies of the United States Congress on the 
Senate side, Judiciary Committee that you had a hearing 
before--Judiciary, Homeland Security, to converge on these 
issues and begin to respond and build up the necessities.
    Now, let me just note that the Government of Mexico has 
deployed more than 300 Mexican State Police officers to target 
criminal organizations, human smugglers, and transnational 
gangs along the border in order to support a cooperative effort 
to reduce violence along the border. I will be meeting with 
them to determine the effect of that utilization. And until we 
determine the effect, we want to hear from you, we want to work 
with you, and we're very, very pleased that you're here this 
afternoon.
    Thank you very much. I yield back my time.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims
    According to Border Patrol statistics, from FY 2001 through the end 
of FY 2005, there have been 144 documented incursions into the United 
States. The Border Patrol's definition of ``an incursion'' is an 
unauthorized crossing of the international border by individuals who 
are, or appear to be, Mexican government personnel, whether intentional 
or not.
    A well-publicized incident occurred last month in Hudspeth County, 
Texas. On January 23, 2006, Deputy Sheriffs from Hudspeth County 
encountered 3 vehicles thought to be carrying marihuana in the vicinity 
of the border with Mexico. They pursued the vehicles to the Rio Grande 
River where one them got stuck in the river. As they approached the 
river, they observed a military-style hummvee with a machine gun and 
what the deputies believed to be Mexican soldiers armed with military 
weapons. A second hummvee arrived and uniformed men were observed 
getting out and taking positions east and west along the Mexican side 
of the river, hiding behind heavy thick brush. Then 10 to 15 men 
dressed in civilian clothes appeared. Some of these men were armed with 
automatic long rifles. The contraband was loaded on another pick up 
truck on the Mexican side and then the vehicles drove off.
    According to the Mexican government, the uniforms, insignia, 
armament, and vehicles that appeared on a video of this incident do not 
correspond to those utilized by the Armed Forces of Mexico. The Mexican 
government also determined that the people involved were criminals 
linked to the Rodolfo Escajeda drug-trafficking organization.
    In any case, the potential for high-level violence along the border 
is increasing at an alarming rate. It has reached the point where 
Border Patrol agents and Deputy Sheriffs are shot at on a routine 
basis, and they are encountering traffickers who appear to have 
military training and are armed with automatic pistols, rifles, machine 
guns, grenades, grenade launchers, and other military type equipment. 
It is apparent that local Deputy Sheriffs are not equipped for combat 
with such heavily armed opponents and that they do not have the 
manpower for such confrontations in any event. In addition to its own 
work along the border, the Border Patrol participates in joint programs 
with the Mexican government. For instance, the Border Patrol has a 
liaison program to share information on terrorist threats and special 
interest aliens with their counterparts in the Government of Mexico. 
The Border Patrol is working with the Government of Mexico to pursue 
the Operation Against Smugglers Initiative on Safety and Security 
(OASISS). This is a bilateral alien smuggler prosecutions program that 
includes efforts to identify and prosecute violent human smugglers and 
save the lives of migrants who are put at risk by smuggling 
organizations.
    I also want to note that the Government of Mexico has deployed more 
than 300 Mexican state police officers to target criminal 
organizations, human smugglers, and transnational gangs along the 
border in order to support a cooperative effort to reduce violence 
along the border.
    Nevertheless, the Administration has not done enough to secure the 
border. The Border Patrol needs more agents and more resources. My 
Rapid Response Border Protection Act, H.R. 4044, would meet these needs 
by providing critical resources and support for the men and women who 
enforce our immigration, customs, and other laws.
    This would include adding 15,000 Border Patrol agents over the next 
5 years, increasing the number of agents from 11,000 to 26,000. It 
would require the Secretary of the Department of Homeland Security 
(DHS) to respond rapidly to border crises by deploying up to 1,000 
additional Border Patrol agents to a State when a border security 
emergency is declared by the governor. It would add 100,000 more 
detention beds to ensure that those who are apprehended entering the 
United States unlawfully are sent home instead of being released into 
our communities. And, it would provide critical equipment and 
infrastructure improvements, including additional helicopters, power 
boats, police-type vehicles, portable computers, reliable radio 
communications, hand-held GPS devices, body armor, and night-vision 
equipment.
    We will not have a secure border until we provide the Border Patrol 
with the equipment and resources it needs.
    Thank you.

    Mr. Hostettler. Thank the gentlelady.
    The chair now recognizes the distinguished gentleman from 
Virginia, the Ranking Member of the Subcommittee on Crime, 
Terrorism, Homeland Security, for purposes of an opening 
statement. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Thank you and Mr. Coble 
and Ranking Member Jackson Lee for holding this joint oversight 
hearing titled ``Outgunned and Outmanned: Local Law Enforcement 
Confronts Violence Along the Southern Border.'' This is the 
second in our series of joint Subcommittee hearings on violence 
and other law enforcement challenges along our southwest 
border, and it is evident from the title of the hearing that 
we're reviewing another serious aspect of this problem.
    At our last hearing we heard shocking reports of 
sensational crime and violence at the southwest border near 
Laredo, Texas, including attacks on law enforcement personnel, 
kidnappings of both Mexican and American citizens, drug and 
human smuggling for drug cartels, and international gangs and 
more. Today we'll hear about numerous incidents of incursions 
into the United States by heavily armed groups dressed in 
military-style uniforms in support of illegal activities. Some 
reports have indicated that these are Mexican military 
personnel, though both Mexican and United States officials have 
said that this is not the case. Whoever they are, the 
implications are serious for the safety of our local as well as 
Federal law enforcement officials.
    Mr. Chairman, I look forward to the testimony of our 
witnesses regarding what they're experiencing and what needs to 
be done by Congress to help get a handle on these disturbing 
developments along our southwest border.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Hostettler. I thank the gentleman from Virginia.
    The chair now recognizes the distinguished gentleman from 
Texas, the former Chairman of the Subcommittee on Immigration, 
Border Security, and Claims, for purposes of an opening 
statement.
    Mr. Smith. Thank you, Mr. Chairman. I don't have time for 
an opening statement, as we know, or we will miss this next 
vote. But I just had to personally welcome, with the indulgence 
of the other Members, the two Texas sheriffs who are here and 
say to them how much I appreciate their making this effort and 
their testimony--which unfortunately won't be able to begin 
now, I think, for a few minutes. But we appreciate the effort 
and I welcome you all as far as that goes. It's a credit to the 
Chairman, his having a hearing on this subject, and it's a 
credit to you all that you're taking such an interest in such 
an important issue.
    Mr. Hostettler. Thank the gentleman.
    Gentleman, members of the witness panel, we will recess for 
a short period of time in order to vote in the House of 
Representatives. Thank you for your indulgence. I apologize for 
the break in the action, but we look forward to hearing from 
you shortly.
    Thank you.
    [Recess.]
    Mr. Hostettler. The Subcommittees will come to order.
    At this point I would like to introduce members of our 
witness panel. Leo Samaniego has served as Sheriff of El Paso 
County in Texas since he was first elected in 1984. Prior to 
his election as sheriff, Sheriff Samaniego served in the El 
Paso Police Department for 28 years. He is a 1972 graduate of 
the FBI National Academy and he serves as a member of the Texas 
Crime Prevention Association, American Legion Post 74, and is 
chairman of the El Paso Area Community Justice Council. Sheriff 
Samaniego has been the recipient of numerous awards, including 
the League of Women Voters Bravo Award and the City of El Paso 
Conquistador Award.
    Larry Dever has been the sheriff of Cochise County in 
Arizona since being elected to that position in 1996. He is a 
20-year veteran of the department who previously served as 
chief of field operations under Sheriff Jimmy Judd and then as 
head of support services under his predecessor, Sheriff John 
Pintek. He has appeared on CNN and his quotes have appeared 
many times in national media, as Cochise County has the largest 
traffic of illegal aliens of any county along the entire 
southern border, based on apprehensions by the Border Patrol 
and other indicators.
    Todd Garrison was appointed by the Dona Ana County 
Commissioners in 2005 as the sheriff of Dona Ana County. 
Sheriff Garrison began his law enforcement career in 1985 with 
the Las Cruces Police Department, where he worked until 
September 1999. In 1999, he left the Las Cruces Police 
Department and began working for the New Mexico Motor 
Transportation Department as a Highway Patrol officer. In 2000, 
he became a patrol sergeant with the department, supervising 
officers in five area counties. In addition to serving as 
sheriff of Dona Ana County, Sheriff Garrison is currently a 
member of the Mesilla Valley Regional Dispatch Board and is the 
vice chair on the Metro Narcotics Board.
    In 1994, Sigifredo Gonzalez--is that right, Sheriff?
    Sheriff Gonzalez. Yes.
    Mr. Hostettler [continuing]. Was appointed and then elected 
sheriff--It's like Hostettler; it's just--you have to work on 
it.--elected sheriff of Zapata County, Texas. He has since been 
reelected in 1996, 2000, 2004. Sheriff Gonzalez began his 
career in law enforcement 29 years ago as a deputy sheriff in 
Zapata County, at the age of 20. In 1981, Sheriff Gonzalez 
served with the Zapata County Attorney's Office, becoming the 
first investigator for that office in the history of Zapata 
County. In addition to serving as sheriff of Zapata County, 
Sigifredo Gonzalez serves as the chairman of the newly formed 
Texas Border Sheriff's Coalition and as the chairman of the 
Public Protection Advisory Committee of the South Texas 
Development Council.
    Gentlemen, thank you for being here. In keeping with policy 
of the Committee, we swear in witnesses. If you will please 
rise and raise your right hand.
    [Witnesses sworn.]
    Mr. Hostettler. Thank you very much. You may be seated. Let 
the record reflect that each answered in the affirmative.
    Gentlemen, we have a lighting system here and a time limit 
for opening statements. Without objection, your written 
statements will be made a part of the record. We're somewhat 
lenient, especially with our witnesses, on that 5 minutes, but 
if you can hold your testimony to as close to 5 minutes as 
possible, we would appreciate it. We will try to hold our 
questions to as close to 5 minutes as possible.
    Thank you very much. Sheriff Samaniego, you are welcome to 
begin.

   STATEMENT OF SHERIFF SAMANIEGO, EL PASO COUNTY SHERIFF'S 
                     OFFICE, EL PASO, TEXAS

    Sheriff Samaniego. Chairman Hostettler, Chairman Coble, 
Ranking Members Jackson Lee and Scott, and Members of the 
Subcommittees, on behalf of the Texas Border Sheriff's 
Coalition, I want to thank you for allowing me to testify today 
before these two Committees on the violence along the U.S.-
Mexican border and the impact it has on local law enforcement. 
Failure to stop drug and alien traffic on the border will 
affect every State and city in our county. The very routes, 
methods of concealment, and human resources used by these 
traffickers are also a threat to our Nation's security.
    On November 2, 2005, Homeland Security Secretary Michael 
Chertoff was quoted in the El Paso Times saying we are not in 
control of our border. And I'd like to--the Border Patrol does 
an outstanding job. But they don't have the manpower necessary 
to handle what I call a planned, well organized invasion of 
undocumented aliens and the increase in drug trafficking. I'll 
give you a few examples of what we have been finding just in 
the last few days.
    Last Friday, my deputies stopped a speeding Ford Bronco and 
found 11 undocumented aliens stuffed into the back portion of 
it. During an investigation and with the assistance of the 
Border Patrol, they rounded up a total of 232 aliens in a 
matter of a few hours at various hotels, motels, and private 
residences.
    A few days before, deputies stopped a tractor trailer rig 
for speeding. The driver had an outstanding warrant, and he was 
arrested. A drug canine unit was called and the dog alerted on 
a box found inside that contained 68 pounds of cocaine.
    A few days before that, deputies found five undocumented 
aliens hiding in a house, one in possession of cocaine and 
marijuana and a loaded handgun with 34 extra rounds of 
ammunition.
    In order for the Nation to understand the southwest border, 
sometimes you have to take bold steps and identify the truth. 
The truth is Mexico is a neighbor to the south with some 
practices very few in Government wish to recognize. The term 
``madrina,'' which means bridesmaid or godmother, is associated 
with individuals who are not official Government employees, but 
they have been given the authority by a police agency or 
individual officer to act on their behalf; in other words, to 
do the dirty work. Madrinas draw no salary, get no benefits, 
but they have the authority to act as officials of whatever 
agency they have been appointed by. They make their money from 
bribes, offering protection in kidnappings and even executions. 
If implications arise, they are considered expendable because 
the Mexican Government doesn't officially recognize them, but 
by turning a blind eye, allows this system to exist.
    I'd like to talk a little bit about what's happening on the 
other side of the border. It's important that we know what's 
going on not only on the U.S. side, but the Mexican side. And I 
will refer to an incident that happened in Hudspeth County the 
last week of November, involving a dump truck that crossed the 
border loaded with bundles of marijuana. They managed to make 
it all the way to the Interstate, where they were spotted and a 
chase began. The individual made a U-turn, managed to find an 
exit, and made a bee-line for the border. He made it, but the 
truck got stuck right in the middle. The driver jumped out, 
took off running. U.S. officials were able to unload 95 large 
bundles of marijuana before the driver reappeared, this time 
with a Caterpillar and a bunch of individuals dressed in black 
BDUs and armed with AK-47s.
    The truck was pulled back to Mexico with half of the load 
still in it. Mexican authorities were notified, but there was 
no response. A few days later, Mexico did send a group of AFI 
agents. AFI is a combination of DEA-, FBI-type of organization 
that was formed in 2002. It is financed by the United States 
and trained by the United States. On December 7, at about 7:30 
p.m., in Tornillo, near Fabens in El Paso County, 16 AFI agents 
ran into some elements of the 20th Infantry Regiment out of 
Juarez and a shootout broke out. Two AFI agents were wounded. A 
military commander was detained by the PGR, which is the 
Attorney General's Office. There is no further information as 
to what happened to anybody. There are rumors that a second 
encounter took place and a soldier was killed by AFI agents, 
but I have not been able to verify that information.
    On the 23rd of January, 2006, everyone has mentioned that 
incident, the three SUVs that crossed into the U.S. loaded with 
marijuana. They were spotted, they retreated to the border. One 
got stuck, one made it across. The other one had a blowout and 
the officers recovered the drug. The officers took photos and a 
video. The Mexican Government released the name of 11 
individuals that were identified as drug traffickers, but the 
Government denied that the army took part. They're trying to 
say that 11 individuals was the total number of personnel on 
the Mexican side, and this is not a fact.
    In closing, I would like to close by describing how the 
Texas Border Sheriff's Coalition has organized to share 
information. We have developed an operation to help one another 
deal with the Federal Government's failure to take control of 
the border. Operation Linebacker is a program designed by 
locals, by the 16 sheriffs on the border to solve our problems. 
Extra patrols already operate under this plan, thanks to 
Governor Rick Perry, who has stated on numerous occasions, 
``Although the border security is a Federal responsibility, we 
have no choice but to take aggressive steps at the State and 
local level to secure our borders and protect Texans.'' 
Operation Linebacker is making life more difficult for those 
trying to smuggle drugs, weapons, and people into Texas.
    It is imperative that we increase security along our 
southern border. It is a matter of public safety. Without 
border security you don't have, or you won't have, national or 
homeland security.
    Thank you very much. I will be happy to answer any 
questions you might have.
    [The prepared statement of Sheriff Samaniego follows:]
                  Prepared Statement of Leo Samaniego
    Chairman Hostettler and Coble, Ranking Members Jackson-Lee and 
Scott, and Members of the Subcommittees, I would like to thank you for 
the opportunity to testify today on the violence along the southern 
border and its impact on Local law enforcement. As I have stated 
previously in other hearings, my only regret is that the hearing wasn't 
held on the border, where the rubber meets the road in border violence, 
drug and human trafficking, incursions and national security.
    I realize that our nation's homeland security is our number one 
priority. Establishing that priority does not diminish the continuing 
problems we have with the recent front page headline grabbing problems 
border incursions, drug/human trafficking and violence. In many ways, 
all of these issues go hand in hand. The very routes, methods of 
concealment, and human resources used by illicit organizations for drug 
trafficking and alien smuggling are also a threat to our nation's 
security. On this border, counter-narcotics and national security 
efforts tap into the same law enforcement resources.
                              the problem
    My hometown of El Paso, Texas, unfortunately is one of the leading 
gateway cities for the transshipment of narcotics. I want to emphasize 
that the drugs flowing across this border, are, by and large, not 
staying here. Drug trafficking is not a local problem, it is a national 
problem, and requires the attention of our Federal government. While 
there is a drug abuse problem in El Paso, the demand does not compare 
to the high demand for drugs in the rest of the nation. The problem for 
El Paso is the transshipment of drugs through the region, and the 
illegal activities associated with it. Drug traffickers do not stop for 
long once they have entered El Paso. They continue with their shipments 
on to cities throughout the country. The failure to stop drug smuggling 
here today could mean 1,000 kilograms of marijuana will end up on the 
streets of Evansville, Indiana, Greensboro, North Carolina, Houston, 
Texas, Richmond, Virginia or tomorrow - you name the city, and state.
    To illustrate my point as I was preparing to leave Texas for 
Washington D.C. the El Paso County Sheriff's Office was completing its 
field investigation into a traffic stop in the far west end of the 
county. The traffic stop was for speeding . . . big deal. However, in 
the vehicle were eleven (11) undocumented immigrants. The traffic stop 
led to a house in the county with fifteen (15) more undocumented 
immigrants and then a motel with thirty-nine (39) more undocumented 
immigrants, and a hotel in Downtown El Paso with 126 more and then a 
couple of more motels with 38 more undocumented immigrants.
    In the middle of this simple traffic stop our agency was informed 
that many of those brought into the country illegally across the river 
in an isolated area east of the county, had not eaten for more than 
three days. One woman made an outcry that she had not seen her 7 year-
old child or husband because they became separated in the desert.
    This resulted in our agency activating a massive law enforcement 
effort to locate the missing child and husband. As I testify today we 
are just finishing all of the paperwork in reference to this simple 
traffic case which resulted in the discovery of almost 229 undocumented 
immigrants. The missing child case appears to have a happy ending; 
however our agency protocol forces us to await some additional 
paperwork before we officially close this case. This traffic stop has 
resulted in our agency passing along some information to our Criminal 
Enterprise unit which is charged with investigating the type of 
criminal nexus.
    Everyone believes violence is associated with the sound of a gun. 
I'm here to tell you this is not the only sound you'll hear. Violence 
along the border also includes the loud gasp of farmers and ranchers 
who find dead bodies in the desert from the illegal entry, bodies 
recovered in the river on the U.S. side from individual victims who 
have been killed by smugglers or river bandits.
    The violence also translates into the screeching sound of tires 
traveling at a high rate of speed as drivers who literally crossed into 
the United States over a dry river bed attempt to elude law enforcement 
with a vehicle loaded with narcotics.
    One such incident occurred on Wednesday, December 14, 2005. 
Deputies in Hudspeth County and Border Patrol Agents working in 
Hudspeth County identified a pick-up truck suspected of engaging in 
narcotics trafficking. Based on physical evidence; the vehicle crossed 
a low water point in the Rio Grande in Hudspeth County, Texas. The 
vehicle illegally crossed into the United States from Mexico.
    Border Patrol Agents and Hudspeth County deputies spotted the 1992 
Ford (Black and Grey) extended cab 4X4. The driver of the vehicle 
failed to pull over and eventually crossed into El Paso County. El Paso 
County Sheriff's Deputies were notified of the fleeing vehicle.
    The driver traveling west on Interstate 10 exited the highway at 
the Tornillo exit and headed south toward the river. El Paso County 
Sheriff's Deputies (Drug Interdiction Unit) spotted the vehicle and 
attempted to pull the driver over.
    The driver traveling south on Feed Penn (Approximately 55 mph in a 
residential area & School Zone) thought he was crossing the river near 
the intersection of Chamizo. In reality the driver was crossing the 
Franklin Canal when his truck got stuck. He was not injured as a result 
of driving into the canal. The driver exited the vehicle. Deputies 
caught him in a foot pursuit.
    The driver is identified as Ricardo Roman Padilla (26 years old) 
from Guadalupe, Chihuahua, Mexico. Padilla is charged with possession 
of marijuana (over 50 pounds under 2,000 pounds). This is a second-
degree felony. His bond is $75,000.00.
    This is an incursion that demonstrates how porous the Texas/Mexico 
Border is. Imagine if this chase had occurred about 20 minutes early 
when school children would have been walking home from school along 
Feed Penn Rd.
    He was caught because Governor Rick Perry provided the Texas Border 
Sheriff's Coalition grant money that allows us to increase patrols in 
the hot spots. This grant pays officers overtime to work these danger 
zones. This is a program we call ``Operation Linebacker.''
                    national law enforcement effort
    The enforcement efforts in other major cities are being increased 
because we are not stopping the drugs here. Efforts to secure our 
border against narco-terrorism have not curbed the use of the Southwest 
border as the most significant gateway of drugs being smuggled into the 
United States. Federal resources have been expanded in cities to our 
north to combat drug use and distribution, yet most of the drugs have 
originated from this border.
    If illicit organizations can bring in tons of narcotics through 
this region and work a distribution network that spans the entire 
country, then they can bring in the resources for terrorism as well. If 
illegal aliens can be smuggled through here in truck loads (and they 
are) then terrorist organizations can also covertly smuggle the people 
to carry out their plans. On the Southwest Border, the same 
organizations involved in smuggling drugs have also been found to 
smuggle illegal aliens. Their motive is profit, regardless of the 
negative impact on our country. Smuggling terrorists, weapons, or 
weapons components would not be a far reach for these established 
organizations.
    There are two issues that plague this area. First, the Federal 
government is expecting local agencies to assist with addressing the 
national drug problem, and now with increased national security 
efforts, but at the same time has been reducing law enforcement 
resources, such as federal law enforcement grants and prison 
reimbursement funds (SCAAP). Secondly, the Federal government is 
expecting more of its Federal agencies on the Southwest Border without 
providing adequate resources.
             understanding border security from the field.
    While the city of El Paso is a safe community, the nation's third 
safest; approximately 3,000 automobiles a year are stolen in El Paso 
and taken to Mexico. Literally a stone's throw away, the City of 
Juarez, Mexico has been plagued with over 500 drug related homicides in 
the last ten years. Many of those were gang-style executions, and in 
addition there were approximately 200 unsolved murders of young women.
    I have been accused of having an agenda in terms of my testimony. 
My agenda is simple: ``Border Security, National Security, and Homeland 
Security.'' If one of these elements is missing the other two don't 
exist.
    In order for the nation to understand the southern border sometimes 
you have to take bold steps and identify the truth. The truth is 
Mexico, our neighbor to the south, continues with some corrupt legal 
practices very few in that government wish to recognize. In fact, some 
in our own government have turned a blind eye to this reality.
    One such phenomena of corruption is the ``Madrina'' - a reality 
I've seen through my own eyes as a law enforcement professional along 
the border for almost 50 years this month. The term ``Madrina'' is 
associated with individuals who are not official government employees, 
but they have been given authority by ``Funcionarios'' recognized 
government employees. The ``Madrinas'' draw no salary and get no 
benefits, yet they are allowed to act as officials of whatever agency 
they have been appointed by. In some cases they'll wear a uniform, 
sometimes carry an official Identification, and will be authorized to 
use equipment (weapons & vehicles). The identification in the United 
States is generally marked ``Honorary.'' In Mexico that I.D. represents 
the ability to carry out the full force of whatever agency that has 
issued the card.
    Many of the ``Madrinas'' are paid through ``Mordida''--a bribe, or 
percentage of the take. Some ``Madrinas'' give a large percentage of 
what they collect to those who have afforded them the identification to 
operate. It is my experience in dealing with them, they admit to no 
payroll, no benefits, no records kept. If a complication arises they 
are expendable, because the Mexican government officially doesn't 
recognize them, but by turning a blind eye allows this practice to 
exist. ``Madrinas'' are unaccountable middle men who can negotiate with 
the drug cartels on behalf of whoever has appointed them and wants his 
or her government agency to thrive under this practice.
    No records, no photos, no phone calls, no witnesses can ever be 
found to connect a Madrina with a government official or a high ranking 
criminal member. When one is found they generally are found dead. I 
know they exist because of my own experience as a street cop. I have 
narcotics officers tell me that the practice and traditions of the 
``Madrinas'' is still alive.
                            border sheriff's
    I would like to close by describing how the Texas Border Sheriff's 
Coalition has organized to share information. We have developed an 
operation to help one another deal with the federal government's 
policies that doesn't allow federal law enforcement to control the 
border. Operation Linebacker is a program designed by locals to solve 
local problems.
    Extra patrols already operate under this plan thanks in large part 
to Texas Governor Rick Perry who has stated on numerous occasions, 
``Although border security is a federal responsibility, we have no 
choice but to take aggressive steps at the state and local level to 
secure our borders and protect Texans.''
    In October 2005 Governor Perry released a comprehensive, six-point 
border security plan that featured Operation Linebacker. Again this 
program was designed by the Coalition to increase local law enforcement 
presence along the Texas-Mexico border, particularly between legal 
points of entry.
    Operation Linebacker is making life more difficult for those trying 
to smuggle drugs, weapons and people into Texas. It is imperative that 
we increase security along our southern border, it is a matter of a 
public safety. With out border security you won't have national 
security or homeland security.
                               conclusion
    I want to thank you, Mr. Chairman, for this opportunity to testify. 
The El Paso County Sheriff's Office continues to make every effort 
possible, working with our fellow law enforcement agencies, Federal, 
state and local, to address the concerns of the community of El Paso 
and the American people. I would be happy to answer any questions you 
might have.

    Mr. Hostettler. Thank you, Sheriff.
    Without objection, the gentlelady from Texas will be 
recognized for some parting comments as she is getting ready to 
leave for a particular CODEL.
    Ms. Jackson Lee. As I indicated, there are a group of us 
headed to the Gulf region and, as I understand, the departure 
time is scheduled for just about now.
    Mr. Chairman, again, and the Chairman of the Subcommittee 
on Crime and my Ranking Member, I want to thank you for this 
hearing. I hope that we will likewise follow it up with Federal 
personnel that are also engaged on the issues of violence at 
the border. I want to note the presence of Mr. Bonner, who 
addresses the questions of the Border Patrol agents. And I want 
the sheriffs to know that because of the work that you've done 
and the efforts that you've made, you have me supporting more 
Federal funds for the extra burden that you are now carrying, 
as it relates to violence. Your testimony here is crucial. 
These are part of the building blocks of our work.
    And, Mr. Chairman, I know that we in the House have 
finished our immigration work, but it's not completed. And I 
hope that we'll have the opportunity, when the omnibus bill 
comes back from the Senate, or a bill comes back from the 
Senate, that our Committee can be instrumental in working on 
additional resources for the border that would include those 
resources that I spoke about in my Rapid Response Border 
Protection Act that has been filed before this Committee, and 
as well the resources that these sheriffs would need. Because 
it is a collaborative effort. That's what I've spoken to--it's 
collaboration, not a singular effort. And this, I think, will 
help steer away the civilian efforts by focusing on the law 
enforcement efforts.
    So let me thank you and sit for a few more minutes. But as 
I depart, I'm not disrespecting your testimony. Duty calls. And 
I thank you very much for your presence.
    Thank you.
    Mr. Hostettler. Thank the gentlelady.
    The chair now recognizes Sheriff Dever for his opening 
statement.

 STATEMENT OF SHERIFF DEVER, COCHISE COUNTY SHERIFF'S OFFICE, 
                        BISBEE, ARIZONA

    Sheriff Dever. Chairman Hostettler, Chairman Coble, Ranking 
Member Jackson Lee, Ranking Member Scott, Members of the 
Committee, thank you for inviting us here.
    I will dovetail onto some of the comments of my colleague 
from Texas. Arizona's been facing dealing with drug smuggling 
for as long as I've been in the law enforcement business, about 
30 years. Most particularly, we've seen violence increase. You 
know, 20 to 25 years ago, we would--working along the fence, we 
would actually interdict smugglers carrying loads of marijuana 
across the border, right on the fence, and they would just give 
up. Some would drop their contraband and turn and flee, but 
many of them would just surrender at the spot.
    Then we saw an increase in the number of people attempting 
to flee law enforcement. Up till just recently and, really, 
with the advent of the cocaine trade in the late 1980's and 
moving to our area through the Mexican smuggling cartels, to 
one of more severe resistance where today the anticipated 
response to an interdiction is a firefight. These smugglers are 
moving with advance guards, advance surveillance. They know 
that they're under surveillance of the smuggling cartel, and so 
if they don't make a valiant effort to protect their cargo, 
their lives are in jeopardy. Many of them are executed when 
they fail.
    This has added significantly to the risk not only of local 
citizens but specifically the interdicting law enforcement 
officers. Where firefights aren't the norm, high-speed 
vehicular chases are, traveling through congested public 
roadways and through populated residential areas.
    Most of the vehicles being driven are stolen, so a crime 
has already been committed and the person driving the vehicle 
is aware that he's in jeopardy whether he has contraband, be it 
narcotics or illegal aliens, or not.
    The people-smuggling culture is one marked by little if any 
value for human life. Smugglers are interested in one thing, 
and that's profit. They demonstrate very little regard, if any, 
for the human beings who are in their care. We've gone so far 
we're discovering along some of the people-smuggling trails 
occasion where there would be a tree or a bush or something 
that was decorated with women's underwear. And we'd just begin 
to ask, what does this mean? We discovered that those are rape 
trees. They're a monument and a signal to everybody along the 
line of what the consequences will be for failing to cooperate 
with the coyote.
    It's estimated by one study that over 80 percent of aliens 
being smuggled are victims of crimes before they even cross the 
border. Those atrocities very often continue into the stash 
houses until they finally reach their destination.
    I think it's important, and I know from your comments that 
you do recognize that we're not here alone. You have a sheriff 
from New Mexico, several sheriffs from Texas, myself from 
Arizona. I sit on two committees, one with the National 
Sheriffs Association, who has just constituted a standing 
subcommittee in its Legislative Affairs Committee on 
immigration law and review. The Western States Sheriffs 
Association is doing the same; I'm on that committee as well. 
And so I represent over 3,000 sheriffs throughout the Nation as 
I sit here, as well as our own interests, the people of Cochise 
County. Four or 5 years ago, you really couldn't get anybody in 
the criminal justice system, except those on the border, to 
talk about illegal immigration, and now it is the number one 
topic in every criminal justice administration meeting, and 
particularly law enforcement meeting, I attend.
    Lastly, I would just close with this, and that is it's 
important that you understand that while you plan Federal 
strategies and programs to deal with this, sheriffs are 
suffering the consequences of the slowness of that to occur and 
the failure of success to happen. Every Federal strategy has a 
local consequence. Every plan that is implemented and every 
initiative that is launched has a local consequence. And so I 
would encourage that local authorities be involved in those 
early planning stages so we're not blind-sided and we're not 
caught unaware of what might be the consequence of those 
implementations.
    Thank you again for inviting us here. I, too, stand 
prepared to answer any questions you may have.
    [The prepared statement of Sheriff Dever follows:]
                  Prepared Statement of Larry A. Dever
    Mr. Chairman, members of the committee, thank you for inviting me 
to share with you today a local perspective of the current situation 
along the southern Arizona border. I come to you as a lifetime southern 
Arizona resident with a thirty-year law enforcement career working in 
that environment.
    I begin quoting a former Chief of the Tucson Sector of the Border 
Patrol. ``Within the last year, we've been mandated by Congress to gain 
control of that border. And we're going to do that along the Southern 
border, whether it's narcotics, illegal aliens, terrorists, criminals 
or whatever.'' (Chief Jerald Jondall, as quoted in The Arizona Sheriff 
magazine, Autumn 1987.)
    That was the year we first organized the Border Alliance Group 
narcotics task force in Cochise County to jointly combat the burgeoning 
cocaine smuggling business that had developed in the area. At that time 
there were no DEA agents in Cochise County, no FBI, only four Customs 
Office of Enforcement agents and maybe a total of 100 border patrol 
agents. Today, they are all there, along with over a thousand Border 
Patrol agents. Yet in spite of the tremendous increase in the law 
enforcement presence, or as some suggest, because of it, violence 
associated with narcotics and people smuggling activities has markedly 
increased.
    Twenty to twenty-five years ago, we would intercept smugglers right 
on the border fence. Most would simply abandon their cargo and flee on 
foot back south. It wasn't unusual to have some just give up. Today, 
the expected response to an attempted interdiction is a fight. 
Smugglers are armed with high capacity assault weapons and with orders 
to protect their cargo at all costs. They operate under the watchful 
eye of scouts equipped with sophisticated observation and 
communications equipment. Failure to make safe delivery is not 
acceptable and many who do fail are executed. The stakes are extremely 
high.
    High speed chases on congested public highways and through 
populated residential areas are common. Most of the vehicles they are 
driving are stolen. Just recently two local residents were killed and 
several others seriously injured when a ruthless smuggler driving a 
stolen truck at reckless speeds crashed head on into a group of 
vehicles sitting at a stop light.
    The people smuggling culture is one marked by little if any value 
of life or respect for persons or property. One study estimates that 
over 80% of people being smuggled into this country become the victims 
of criminal activity before they ever cross the border.
    Smuggling routes are often marked with ``rape trees''--women's 
under garments hung on tree limbs where a raped occurred, warning 
everyone of the consequences of failing to cooperate with the coyotes 
who prey on them. Running gun battles with fleeing felons occur much 
too frequently placing law enforcement officers and the public alike at 
great risk. Gang activity and its associated violence are on the rise 
as these groups become more competitive in the lucrative people 
smuggling trade. Just last week one of my deputies, the supervisor of 
the narcotics task force was the victim of a drive-by shooting at his 
home. Thankfully, no one was injured.
    The law enforcement effort and the communities along the border 
desperately need your attention. You should be aware that in our area, 
almost ten percent of the illegal aliens that are apprehended have 
criminal records in this country. When we are unsuccessful in catching 
them there, these predators find their way to communities all over the 
nation where they threaten the safety and welfare of local populations.
    When planning strategies for improved enforcement efforts and 
providing adequate resources, it is important to remember that every 
federal initiative has a local consequence. It is critical that local 
authorities be involved in the early stages of the planning process to 
assure that these consequences are clearly understood and considered.
    Again, I thank you for the opportunity to address you, and would 
gladly answer any of your questions.

    Mr. Hostettler. Thank you, Sheriff Dever.
    Sheriff Garrison.

   STATEMENT OF SHERIFF GARRISON, DONA ANA COUNTY SHERIFF'S 
                 OFFICE, LAS CRUCES, NEW MEXICO

    Sheriff Garrison. Mr. Chairman, Members of the Committee, 
thank you today for inviting me to share with you my 
perspective of the situation along the southern border, the 
Land of Enchantment, my home State, New Mexico.
    My name is Todd Garrison and I'm the current sheriff of 
Dona Ana County, Las Cruces, New Mexico. I'm a lifelong 
resident of Dona Ana County. My family tree includes three 
generations of farmers. I've been involved in law enforcement 
since 1985.
    New Mexico has three counties which border Mexico--Dona 
Ana, Luna, and Hidalgo counties--which cover approximately 186 
miles of border. Grant and Otero counties are also right there 
within a few miles. Dona Ana borders Texas and Mexico and 
covers close to 4,000 square miles and 42 miles of border. The 
population in this county is approximately 2,000 people. Luna 
County covers almost 3,000 square miles and has 58 miles of 
border with Mexico. The population is approximately 30,000. 
Hidalgo County is 3,500 square miles and approximately 86 miles 
of border with Mexico. The population is approximately 5,500 
people. New Mexico is a land of wide open spaces. We have a lot 
of room to move around. It's also wide open for opportunities 
for criminals.
    My message today is very clear. I support the Border 
Patrol. In county law enforcement we have learned the value of 
cooperation due to unique challenges and minimal resources. I 
don't want to do the Border Patrol's job. However, when someone 
calls 911, a sheriff's deputy would be the one responding to 
that call. The 911 calls don't get transferred to the 
Department of Homeland Security in Washington, D.C.
    One case in point on the problems of rural enforcement 
along the southern border is an incident which is still under 
investigation as I testify here today. One of my constituents 
was recently the victim of a brutal rape more than 20 miles 
from the border. Investigation has resulted in the apprehension 
of an illegal immigrant who broke into this elderly woman's 
home in Hatch, New Mexico, and raped her. At the time, he was 
drunk and had been using cocaine. There were two individuals 
that had witnessed this horrific crime. Several days later, one 
of my officers unknowingly pulled these people over and, 
realizing that they were illegal immigrants, notified Border 
Patrol and they were then transported away from the country. 
That causes a problem with our criminal case. We've been 
working with Border Patrol to get that situation taken care of. 
But it kind of puts us in a Catch 22 situation.
    In southern New Mexico, we've seen an increase in smuggling 
operatives using juveniles to work as traffickers. Children as 
young as 13 in my community have already formed an alliance 
with criminal enterprises that is destroying the rural 
lifestyle. It's not uncommon for a teenager to master the 
lifestyle of the human smuggler by the time the junior or 
senior prom shows up on the school calendar. The bigger picture 
is destroying the landscape of Dona Ana County, and some of 
these young human traffickers grow up to become drug dealers. 
If the U.S. Attorney would redirect a policy that allows this 
criminal enterprise to exist, we would be able to send a clear 
message to the community that trafficking is against the law.
    Human and drug trafficking is a serious problem. For 
example, it is not uncommon to be told by a U.S. Attorney that 
a juvenile with less than six undocumented aliens or less than 
100 pounds of drugs in their vehicle will not be prosecuted 
because the case does not meet the Federal threshold for this 
area. Consequently, the young trafficker is off the hook, 
allowed to continue as one of the untouchables. And that's what 
they're referred to where they go to school, is ``the 
untouchables.'' Our DA's office handled 498 drug cases linked 
to the Southwest Border Prosecutors Initiative in 2005. These 
were the cases that were declined by the Federal prosecutors.
    The back door of New Mexico is home to a distinctive road 
barrier that separates two nations, America and Mexico. 
Therefore, I see the same thing that Sheriff Arvin West of 
Hudspeth County, Texas, sees. It's not uncommon for what we in 
law enforcement call a load vehicle piled high with marijuana 
to cross the desert unnoticed. And some of the load falls off 
of the vehicles and is recovered by police officers in the 
desert or near State roads. What does get across the vast 
desert area eventually makes its way to Tucson, Arizona; 
Albuquerque; Denver, Colorado, and across the United States.
    The picture of border security along the southern border is 
not what you think. Serious problems currently exist. These 
problems occur daily and fall directly under my jurisdiction. 
The taxpayers of Dona Ana, Hidalgo, and Luna counties 
ultimately pay the price. I agree with my colleagues from 
Texas, enough is enough; and I encourage you to look at 
Operation Linebacker. This concept is designed by locals to fix 
local problems. The problems are really a Federal issue, but 
New Mexico sheriffs are the ones answering the 911 calls.
    Thank you for this time, and I stand here for questions 
also.
    [The prepared statement of Sheriff Garrison follows:]
                  Prepared Statement of Todd Garrison
    Mr. Chairman, members of the committee, thanks for inviting me to 
share with you today my perspective of the situation along the southern 
border of the Land of Enchantment, my home state--New Mexico. My name 
is Todd Garrison and I am the current Sheriff of Dona Ana County (Las 
Cruces), New Mexico.
    I'm a life long resident of Dona Ana County and my family tree 
includes three generations of farmers. I have been involved in law 
enforcement since 1985.
    New Mexico has three counties which border Mexico: Dona Ana, Luna 
and Hidalgo, which covers approximately 186 miles of border. Dona Ana 
borders Texas and Mexico, covers 3,087 square miles and 42 miles of 
border with Mexico. The population in this county is approximately 
200,000.
    Luna County covers 2,965 square miles and 58 miles of border with 
Mexico. The population is approximately 30,000.
    Hidalgo County is 3,446 square miles and 86 miles of border with 
Mexico. The population is approximately 5,500.
    New Mexico is a land of wide open spaces and wide open 
opportunities for crime. My message today is very clear, I support the 
Border Patrol. In county law enforcement we have learned the value of 
cooperation due to the unique challenges and minimal resources. I don't 
want to do the Border Patrol's job, however when someone calls 911 a 
Sheriff's Deputy responding to the call. The 911 calls don't get 
transferred to the Department of Homeland Security in Washington D.C.
    One case in point of the problems of rural law enforcement along 
the southern border is an incident still under investigation as I 
testify. One of my constituents was recently the victim of a brutal 
rape more than 20 miles from the border. The investigation has resulted 
in the apprehension of an illegal immigrant who broke into this elderly 
woman's home in Hatch, New Mexico and raped her. There were two 
individuals that witnessed this horrific crime. However, these two 
witnesses are also illegal immigrants. They were apprehended by the 
Border Patrol for an immigration violation, and now this legal hurdle 
places my case in a distinctive position of a Catch 22.
    In southern New Mexico, we have seen an increase in smuggling 
operatives using juveniles to work as traffickers. Children as young as 
13 years old in my community have already formed an alliance with a 
criminal enterprise that is destroying a simple rural lifestyle. It is 
not uncommon for a teenager to master the lifestyle of a human smuggler 
by the time the Junior-Senior prom shows up on the school calendar.
    The bigger picture is destroying the landscape of Dona Ana County. 
Some of these young human traffickers grow up to become drug smugglers. 
If the U.S. Attorney would redirect a policy that allows this criminal 
enterprise to exist, we would be able to send a clear message to the 
community that trafficking is against the law.
    Human and drug trafficking is a serious problem. For example, it is 
not uncommon to be told by a U.S. Attorney that a juvenile with only 
six undocumented immigrants in his/her vehicle will not be prosecuted 
because this case doesn't meet a federal threshold for this area. 
Consequently the young trafficker is off the hook and allowed to 
continue as one of the untouchables.
    The backdoor of New Mexico is home to a distinctive road barrier 
that separates two nations; America and Mexico. Therefore I see the 
same thing Sheriff Arvin West of Hudspeth County, Texas sees. It is not 
uncommon for what we in law enforcement call a load vehicle piled high 
with marijuana cross through the desert unnoticed and some of the loads 
fall off the vehicles and are recovered by my deputies in the desert or 
near a state road. What did get across the vast desert area eventually 
makes its way to Tucson, Arizona, Albuquerque, New Mexico and Denver, 
Colorado.
    The picture of border security along the southern border is not 
what you think. Serious problems currently exist. These problems occur 
daily and fall directly under my jurisdiction. The tax payers of Dona 
Ana, Hidalgo and Luna counties ultimately pay the price. I agree with 
my colleagues from Texas, enough is enough. I encourage you to look at 
Operation Linebacker. This concept was designed by locals to fix local 
problems. The problems are really a federal issue, but New Mexico 
Sheriffs are the ones answering the 911 calls.

    Mr. Hostettler. Thank you, Sheriff Garrison.
    Sheriff Gonzalez.

STATEMENT OF SHERIFF GONZALEZ, ZAPATA COUNTY SHERIFF'S OFFICE, 
                         ZAPATA, TEXAS

    Sheriff Gonzalez. Thank you, Mr. Chairman.
    Chairman Hostettler, Chairman Coble, Mr. Scott, Ms. Waters, 
Mr. Keller, and Mr. King, thank you very much for the 
opportunity to be here today and testify before you to discuss 
how we local law enforcement officers are confronting violence 
along the southwest border and how we are very much outgunned 
and outmanned.
    With all due respect, I have submitted my written testimony 
with some attachments to it, so I will be referring to those 
attachments at times.
    Out of frustration with our Government's inability to 
protect the border with Mexico, on May 4, 2005, 16 Texas 
sheriffs of counties that border the Republic of Mexico formed 
the Texas Border Sheriff's Coalition. In this coalition, we 
believe that southwest border of our Nation is a front door to 
this country and that many persons have entered our country 
with intentions of harming us. We continue to believe that 
terrorists have expressed an interest and a desire to exploit 
the existing vulnerabilities of our border security to enter 
and to attack the United States of America.
    We are sincere when we tell you that we are not blaming the 
agents of the United States Border Patrol or ICE or any other 
Federal agency, but rather we criticize some of the policies 
that they have to adhere to. The member sheriffs of our 
coalition total almost 460 years of experience, including 101 
years as sheriffs. Sixteen sheriffs are responsible for 39,764 
square miles and over 1,276 miles of wide-open, porous, and 
unprotected border with Mexico. It is obvious that more 
manpower is needed, since some of the sheriffs on the border 
have only six or less deputy sheriffs to protect their 
counties, not including protection of the border.
    Last month, a task force in Laredo, Texas, confiscated 
improvised explosive devices, or IEDs, and other items used to 
make explosive devices. We feel that it is the intention of the 
cartels to use these weapons against us at the appropriate 
time.
    I make reference to Attachment No. 3 in my written 
testimony. The cartels operating in Mexico and the United 
States have demonstrated that the weapons they possess can and 
will be used in protecting their loads of humans or narcotics. 
One informant very familiar with the operations of these 
cartels has mentioned to us that the weapons that we use in law 
enforcement are water guns compared to the weapons that these 
cartels use and that we will soon be confronted with. These 
cartels are known to frequently cross into the United States, 
and they possess automatic weapons, hand grenades, and grenade 
launchers. They are also experts in wiretapping, explosives, 
counter-surveillance, lock-picking, and GPS technology. We must 
remember these cartels, or some of these cartels, were trained 
by our Federal Government.
    In Brooks County, Texas, in south Texas, a high-ranking 
member of the Mara Salvatrucha was apprehended. This MS-13 
member is believed to have been responsible for the killing of 
close to or more than 30 people in his native country in a bus 
explosion. It is very possible these cartels may have already 
formed a nexus with members of al-Qaeda and other terrorist 
organizations. We continue to believe that terrorist cells are 
already in our back yards.
    I again make reference to Attachment No. 4 in my written 
testimony. Recently a jacket was found in Jim Hogg County, in 
south Texas also. Patches indicated several words on them, 
including on the bottom of one patch ``martyr,'' ``way to 
eternal life,'' or ``way to eternity,'' with pictures of 
airplanes flying into towers. A statement was issued by a high-
ranking member of the Department of Homeland Security stating 
that the patches were not from al--Qaeda, but rather were from 
countries where al-Qaeda was known to operate.
    On March 3 of 2005, several officers assigned to do 
surveillance along the riverbank encountered approximately 20 
to 25 persons dressed in battle-dress uniforms, commonly known 
as BDUs. The individuals were very clean-cut. They appeared to 
be in very good physical condition. They were carrying duffel 
bags, backpacks, and what these officers promised and what they 
saw through night-vision goggles--borrowed night-vision 
goggles--were automatic weapons slung on the shoulders of these 
individuals coming in from Mexico. In my town, Zapata, Texas, 
residents are always reporting individuals wearing BDUs, 
backpacks, and possessing weapons getting off boats. This is in 
the middle of the town of Zapata. Residents that call us 
describe them as soldiers.
    In Attachment No. 7 of my written testimony, I make 
reference to a memorandum of January 9th of this year. A USDA 
inspector encountered 17 individuals in Zapata County that had 
just been crossed over into the United States. Three of these 
individuals had in their possession assault-type longarms. The 
inspector noticed that these individuals were not from Mexico, 
based on their accent, but rather from another country. These 
individuals threatened to kill the inspector. The inspector had 
his issued gun and badge under his coat, where it was not seen 
by these intruders. He felt, as his weapon and badge were not 
seen, this is probably what saved his life.
    More and more we are seeing armed individuals entering our 
country. We feel that it is a matter of time before a shootout 
will occur. In the unfortunate event of a shootout, Federal, 
State, and local officers along the southwest border are not 
adequately armed. Compared to the ruthless and brazen and open 
behavior of the cartels we face, we are most certainly 
outmanned.
    Our coalition, the Texas Border Sheriff's Coalition, is 
very concerned with the very unique problems along our border. 
Border Patrol is doing the best job that they can possibly do 
with the resources that are available to them. Immediate help 
is needed for them and for us sheriffs on the southwest border. 
Congresswoman Jackson Lee has introduced the Rapid Response 
Border Protection Act of 2005. This piece of legislation will 
assist in enhancing border patrol of personnel along the 
border. The United States gives Mexico millions of dollars a 
year to combat drug trafficking. This money could be used to 
help us secure our border. The Texas Border Sheriff's 
Coalition, with the assistance of Texas Governor Rick Perry, 
has implemented Operation Linebacker, a second line of defense 
in the protection of our country, the United States Border 
Patrol being the first line of defense.
    Members of the Committee, the problems along the border are 
Federal problems. Governor Perry could not wait for a peace 
officer to get killed along the border. In the only 2 months 
since we started this operation, this operation has already 
proven to be successful. Federal law enforcement funds can be 
better used in programs like Operation Linebacker. The problems 
along the border will continue unless our Federal Government 
intervenes and intervenes soon. We feel that the southwest 
border has been neglected.
    It has been suggested that our coalition is only interested 
in trying to take money from our Federal Government--just to 
get money from our Federal Government. I can assure you this is 
not the case. It is not our intention to take over Border 
Patrol duties. Sheriffs along the southwest border are not 
involved in immigration enforcement. Our only interest, as I am 
sure it's a mutual interest, is the protection of the United 
States of America.
    I want to express my most sincere appreciation for allowing 
us the opportunity to appear before you, and I thank you for 
the work that you do for our country. Chairmen Hostettler and 
Coble, this concludes my testimony. I will be pleased to answer 
any questions that Committee Members may have.
    Thank you.
    [The prepared statement of Sheriff Gonzalez follows:]
             Prepared Statement of Sigifredo Gonzalez, Jr.
    Chairmen Hostettler and Coble, Ranking Members Jackson-Lee and 
Scott, and Members of the Subcommittees, it is an honor and a privilege 
to be invited to appear before these subcommittees to discuss how we, 
local law enforcement officers, are confronting violence along the 
southern border and how we are outgunned and outmanned.
    I would like to briefly discuss how the Texas Border Sheriff's 
Coalition was formed. On April 18th, 2005, I sent out letters to my 15 
colleagues whose counties border the Republic of Mexico. In my letter 
to them I invited them to a meeting to discuss unique problems that we 
face along the border. This was done out of frustration in what I felt 
was the inadequacy of our federal government to protect our border in 
preventing a potential terrorist from entering our country. I felt that 
as a citizen of this great country, our almost 2,000 miles of border 
was very porous, that many people whose intentions were unknown were 
coming into our country to perhaps commit acts in our own country 
similar to or worse than what happened on September 11, 2001, where 
over 3,000 innocent persons lost their lives. All of us expressed the 
same frustration since we had mentioned this many times to federal and 
state legislators. We felt that perhaps speaking as one voice we would 
be heard.
    On May 4th, 2005, we met in Laredo, Texas. As a result we formed 
the Texas Border Sheriff's Coalition. The first and foremost priority 
of our coalition is protecting all residents of this country against a 
terrorist act without regard to race, sex, or ethnic origin. We 
continue to believe that many persons have entered our country with 
intentions of harming us. We continue to believe that terrorists have 
expressed an interest and a desire to exploit the existing 
vulnerabilities in our border security to enter or attack the United 
States. We are sincere when we tell you that we are not blaming the 
agents of the United States Border Patrol, ICE, or any other federal 
agency, but, rather, we criticize the policies that they have to adhere 
to.
    I do want to make you aware that the experience of the member 
sheriffs of this coalition total almost 460 years including 101 years 
of experience as sheriffs. The longest serving sheriff of this 
coalition is El Paso County Sheriff Leo Samaniego with 22 years. I have 
attached the list of member sheriffs of the coalition with their years 
of experience and have marked it as Attachment #1.
    I have been asked to briefly relate to you some of the problems 
that we have encountered along the border, specifically the violence 
along the border and how we are confronting it, in particular, how we 
are outgunned and outmanned. Most of the sheriffs that have encountered 
these problems that I will present are present to answer any questions 
you may have as they relate to their counties. The sixteen sheriffs, 
whose counties border the Republic of Mexico employ under 700 patrol 
officers, are responsible for 39,764 square miles, and 1,276 miles of 
wide open, porous, and unprotected border with Mexico.
    We were used to seeing many persons enter the country illegally; 
however, recently, many of these persons are no longer entering the 
country to look for legitimate employment. We are now seeing that many 
of these persons are members of ruthless and violent gangs. All of us 
are concerned that the border with Mexico is being used as the front 
door to this country. Many of the illegal immigrants from countries of 
special interest are apprehended along the southwest border. I have 
attached two lists documenting the apprehensions along the northern 
border and the southwest border and have marked them as Attachment #2.
    Through intelligence information we have also learned that several 
murders in Laredo, Webb County, Texas, have been orchestrated by 
members of drug cartels operating in both countries. These drug cartel 
enforcers cross the Rio Grande River, illegally, commit their murders 
in the United States, then go back to Mexico, again, via the Rio Grande 
River. They are very well armed and are very accurate in what their 
assignment is. We have all seen in the media the reports of the murders 
in Nuevo Laredo, 30 so far in the first 53 days of 2006. Some of the 
deaths in Laredo, Texas, are also attributed to these cartels. Last 
month, a Task Force in Laredo confiscated IEDs and other items used to 
make explosive devices. We feel that it is the intention of these 
cartels to use these weapons against us at the appropriate time.
    Border Patrol agents and deputy sheriffs are shot at from Mexico on 
a routine basis. In January, there was a sniper in Mexico shooting at 
agents that were working along the banks of the river in the area of 
the cities of Rio Bravo/El Cenizo, which are located south of Laredo. 
This continued, sporadically, for three days. Agents reported seeing 
several individuals wearing military style uniforms on a hill on the 
Mexican side one of them was using what was believed to be a high 
powered rifle with scope. This sniper was arrested last week and is now 
in United States custody.
    On January 23, 2006, in Hudspeth County, Texas, state officers and 
deputy sheriffs pursued three vehicles laden with marihuana. These 
vehicles fled back into Mexico by driving across the Rio Grande River. 
One of them got stuck in the mud. When officers reached the levee of 
the Rio Grande River, they encountered what officers described as a 
Mexican Humvee equipped with a machine gun and what officers believe to 
be Mexican soldiers, fully armed with automatic weapons, waiting for 
these vehicles to cross back into Mexico. These officers on the United 
States side possessed no automatic weapons.
    Several days after this incident, three men drove across the Rio 
Grande River and drove to the home of one of the deputies of Hudspeth 
County. They told the deputy's wife to tell her husband to stay away 
from the river or else. They then drove back to Mexico via the Rio 
Grande River. This was a direct threat against a law enforcement 
officer by known drug thugs from Mexico.
    The cartels operating in Mexico and the United States have 
demonstrated that the weapons they posses can and will be used in 
protecting their caches. One informant familiar with the operations of 
this cartel mentioned to us that the weapons we use are water guns 
compared to what we will have to come up against if we ever have to. 
These cartels, known to frequently cross into the United States, 
possess and use automatic weapons, grenades, and grenade launchers. 
They are also experts in explosives, wiretapping, counter-surveillance, 
lock-picking, and GPS technology. They are able to monitor our office, 
home, and cellular phone conversations. The original members of this 
cartel were trained in the United States by our own government. I have 
attached photographs showing some of the weapons that these cartels 
possess. The photos have been marked as Attachment #3.
    The Rio Grande Valley, Cameron, Hidalgo, and Starr Counties, have 
continuous problems with pseudo-cops coming from Mexico to extort and 
kidnap citizens in these counties. This area is the fastest growing 
area in the nation. They have seen their share of terrorist activity as 
it relates to the migration of many members of ruthless gangs that come 
into this country for reasons other than legitimate employment. 
Sometime last year, a woman was taken off an airplane at the McAllen, 
Texas, airport. She had come in from Mexico, through the river, as her 
clothing was still wet, and had a passport from it is my understanding, 
Africa. She was from a special interest country and had come in to 
Mexico using a passport from a friendly country to avoid detection. Who 
knows what her intentions were. Thanks to an officer at the airport she 
was taken off the plane.
    During this same time period, a high-ranking member of the Mara 
Salvatrucha, or MS-13, was apprehended in the Brooks County area, also 
in south Texas. He had entered the country illegally. This MS-13 member 
is believed to have been responsible for the killing of close to 30 
persons, or more, in a bus explosion in his native country. These 
people, as many others, find it very easy to come into our country 
through a very porous, wide-open, and unprotected border.
    We recently received information that the cartels immediately 
across our border are planning on killing as many police officers as 
possible on the United States side. This is being planned for the 
purpose of attempting to ``scare us'' away from the border. They have 
the money, equipment, and stamina to do it. They are determined to save 
their ``load''. It is very possible, these cartels may form a nexus 
with members of Al Qaeda and other terrorist organizations. The 
Department of Homeland Security recently issued Officer Alerts warning 
their agents of the potential threats. We, the local officers, learned 
about it through the news media.
    Local, state, and federal officers have found many items along the 
banks of the Rio Grande River that indicate possible ties to terrorist 
organizations or members of military units of Mexico. Currency and 
clothing are common finds. Recently, a jacket with patches was found in 
Jim Hogg County, Texas, by agents of U. S. Border Patrol. The patches 
on the jacket show an Arabic military badge with one depicting an 
airplane flying over a building and heading towards a tower, and 
another showing an image of a lion's head with wings and a parachute 
emanating from the animal (lion). It is believed from an undisclosed 
document that Department of Homeland Security translators concluded 
that the patches read ``defense center'', ``minister of defense'', or 
``defense headquarters''. The bottom of one patch read ``martyr'', 
``way to eternal life'' or ``way to immortality''. I have attached 
copies of these patches and have marked them as Attachment #4.
    On January 28th, 2006, USBP Chief David Aguilar was asked by a 
reporter from KGNS television station in Laredo, Texas, what the 
outcome of the investigation of the jacket was. Chief Aguilar responded 
that the patches were not from Al Qaeda but from countries Al Qaeda was 
know to operate.
    On February 2nd of this year, one of my deputies discovered an 18'' 
duffle bag approximately 8 miles North of Zapata by the highway right 
of way. This duffel bag had ``Armada de Mexico'' embroidered on the 
bag. Inside the bag were several items that are commonly used by 
persons that are knowledgeable in bodybuilding, in staying in good 
physical shape, and used to physical exertion. A bus ticket with an 
origin of Veracruz, Mexico was also found inside the bag. Although I am 
not insinuating that the person carrying this bag was a member or 
former member of the Mexican Navy, but there is a naval academy in 
Veracruz. I have attached photographs of the duffle bag and marked it 
as Attachment #5. The copy of the bus ticket found inside the duffel 
bag is also attached and marked as Attachment #6.
    Employees of our offices have also seen incursions into this 
country of persons dressed in battle dress uniforms (BDUs), carrying 
what officers believe to be automatic weapons, very clean cut, and in 
very good physical condition. On March 3rd, 2005, several officers 
assigned to do surveillance by the Rio Grande River by the Zapata/Webb 
County line observed approximately 20-25 persons dressed as indicated 
above walking on a gravel road, coming from the area of the riverbanks, 
marching in a cadence. The deputy observed these individuals through 
his borrowed night vision goggles. These individuals were carrying 
large duffle bags and walking two abreast. They also had backpacks.
    In the town site of Zapata, residents are always reporting 
individuals getting off boats. These individuals also wear BDUs, 
backpacks, and possess weapons. The residents describe them as 
soldiers.
    On January 9th, 2006, a USDA Tick Inspector encountered 17 
individuals in Zapata County that had just been crossed into the United 
States. Three of these individuals had in their possession assault type 
long arms. The Inspector noticed that these individuals were not from 
Mexico but from another country since they spoke Spanish with an accent 
that is not common in Mexico. These individuals threatened to kill the 
Inspector. The Inspector had his issued gun and badge under his coat 
where it was not seen by these persons. He felt that this probably 
saved his life. I have attached a copy of a DHS Officer Safety Alert 
dated January 20, 2006 and have marked it as Attachment #7.
    We have recently learned that a certain cartel has put out a threat 
against law enforcement officials, specifically all DPS Troopers in Rio 
Grande City, TX. This threat was made in response to the shooting of a 
23-year-old by a DPS Trooper on January 14, 2006. It is believed that 
the deceased may have been a member or associate of this cartel. 
Information also indicates that this cartel will be expanding their 
operations to the Maverick and Val Verde Counties in the very near 
future. These counties will see a surge in violence, kidnappings, and 
extortions just as we have seen in border counties in the southern part 
of Texas.
    More and more we are seeing armed individuals entering our country 
through our counties. We feel that it is a matter of time before a 
shootout will occur. During the Hudspeth County incident officers 
pulled out cameras instead of weapons. It the unfortunate event of a 
shootout, federal, state, and local officers along the southwest border 
are not adequately armed. Compared to the ruthless and brazen and open 
behavior of the cartels we face, we are most certainly outmanned. In 
most counties, deputies ride alone while patrolling. Jeff Davis County 
has only a sheriff and three deputies to patrol the 2,267 square miles 
of that county. Brewster County, the largest county in Texas with 6,193 
miles, has only 6 deputy sheriffs to patrol the county. In the event of 
a shootout, many casualties will likely occur. Federal, state, and 
local officers all along the southwest border of the United States are 
outgunned and outmanned.
    The Texas Border Sheriff's Coalition is very concerned of the very 
unique problems along our border. Border Patrol is doing the best they 
can with the resources that are available to them. Immediate help is 
needed for them and for Texas border sheriffs and for the protection of 
our country. Congresswoman Sheila Jackson-Lee has introduced HR 4044, 
the Rapid Response Border Protection Act of 2005. This piece of 
legislation will assist in enhancing border patrol personnel along the 
border. Ranking Member Jackson-Lee is concerned with the problems along 
the southwest border, just as every member of this committee is.
    Congressman John A. Culberson has also introduced HR 4360, the 
Border Law Enforcement Act of 2005. This piece of legislation also 
covers all of the problems that we, as sheriffs, are encountering along 
the border. Congressman Culberson consulted with us in writing this 
pending legislation.
    We, the Texas Border Sheriff's Coalition, have implemented 
Operation Linebacker, a second line of defense in the protection of our 
country. The United States Border Patrol being the first line of 
defense. The problems along the border are federal problems. Our 
governor, the Honorable Rick Perry, could not wait for a peace officer 
to get killed along the border. He, just as we, is very much concerned. 
He has appropriated $6 million as seed money for us to start the 
operation. Just last month Governor Perry granted our Coalition an 
additional $3.8 million. The problems along the border will continue 
unless our federal government intervenes soon. Must we wait until an 
officer gets killed or until after another terrorist act?
    I want to express my most sincere appreciation for allowing us the 
opportunity to appear before you and thank you for the work you do for 
our country, the United States of America.
    Chairmen Coble and Hostettler, this concludes my statement. I will 
be pleased to answer any questions that you or Members of the Committee 
may have.

                              ATTACHMENTS
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Thank you, Sheriff Gonzalez.
    We will now turn to questions. This is a question for all 
of you. The Immigration, Border Security, and Claims 
Subcommittee has jurisdiction, obviously, over immigration 
policy. One of the significant issues that will be addressed in 
this Congress is the issue of the expansion of employment 
opportunities for individuals who are currently in the country 
illegally, known as a guest worker program, temporary worker 
program, or the like.
    While many who support such a program do not wish for it to 
be characterized as amnesty, my first question is, as a result 
of the amnesty--after the amnesty in 1986, did the problems 
along the border intensify or were they reduced? Have things 
gotten better since 1986 or worse as a result--I guess I should 
say after the passage of the amnesty?
    Sheriff Samaniego. If I may. Anytime you give a group of 
illegal, undocumented aliens that are already here amnesty or 
even anything that sounds close to amnesty, you're sending the 
message to the next 12 million that are going to come in after 
them. You cannot have--you know, let them come in--they know 
that if they stay here long enough, they get a job and they're 
good people, that they're going to be given amnesty and they'll 
be able to stay here. But it sends the message to the rest of 
the world you can do the same thing because the same thing is 
going to happen to you.
    Mr. Hostettler. Thank you.
    Sheriff Dever. Mr. Chairman, if I may. It was interesting, 
you mentioned 1986. This is a copy of Arizona Sheriffs 
magazine, a quote in here from the chief of the Border Patrol 
at the time this was published in Tucson. The title of the 
document is ``Gaining Control of the Border: The Chief's 
Toughest Assignment.'' And I quote:
    Within the last year, we've been mandated by Congress to 
gain control of that border. And we're going to do that along 
the southern border, whether it's narcotics, illegal aliens, 
terrorists, criminals, or whatever.
    That's dated autumn of 1987, which I think, given that and 
our statements here today, may be a strong indicator of the 
answer to your question, sir.
    Mr. Hostettler. Thank you.
    Sheriff Garrison?
    Sheriff Garrison. In answer to your question, sir, I 
believe there are a lot more documented aliens in our area now. 
There are still a lot of undocumented aliens that continue to 
come. We're an agricultural community in that area, and, you 
know, they do keep coming over. What concerns me is the 
criminals who are coming in. That has definitely increased.
    Mr. Hostettler. Thank you.
    Sheriff Gonzalez. Chairman Hostettler, from what we've seen 
in our area since the passage of the amnesty legislation, we're 
seeing more and more immigrants coming in. We're no longer 
seeing the people that would come in to look for employment. 
But more and more we're seeing people that are coming in, in 
our opinion, to commit some type of illegal acts. People are 
more brazen now. There's more boldness, more openness. They're 
not afraid of being deported, they're not afraid of being 
caught. And these are the problems we're seeing since amnesty.
    For example, in Maverick County and Val Verde County, 
they're having major problems with the OTMs. The sheriffs there 
are very concerned as to what is coming into the country in 
regard to sicknesses. How many rapists have come into the 
country? How many child abusers? How many murderers, robbers, 
burglars, thieves are coming into the country? No one's 
checking on these people.
    So you could say since maybe about 3 years, 4 years ago, we 
have seen a tremendous increase, and it just seems that 
somebody is sending out invitations to come into the country. 
That's the perception we have.
    Mr. Hostettler. Thank you.
    Sheriff Garrison, you made an interesting point. You talked 
about a Catch 22. You had a specific incident that you related. 
A heinous crime had taken place, the rape of an elderly woman 
by an individual that, you found out later, was illegally in 
the country, had associates, and that whenever those 
individuals were stopped and you found out that they were in 
the country illegally and that they were involved in this 
crime, you contacted, as you should have, the Federal 
authorities and these individuals were removed from the 
country. Is that correct?
    Sheriff Garrison. Yes, sir.
    Mr. Hostettler. And the Catch 22 was that you had a crime 
perpetrated upon your constituents, on individuals you were 
sworn to protect, and you would rather have been able to 
prosecute that crime and the criminal and you needed the 
witnesses, and all the parties that you needed to prosecute the 
crime were removed from the country. Is that what you meant by 
``Catch 22''?
    Sheriff Garrison. Yes, sir. In this particular situation, 
the two people who were stopped a few days later were turned 
over to the Border Patrol and were taken back. Now we're having 
to work out some kind of arrangements to try to bring them back 
so that they can testify, and it just has caused problems in 
that area.
    On occasion, we have domestic violence issues that come up. 
And if it's an illegal alien, they are afraid to call law 
enforcement because they fear they might get deported. So it 
has----
    Mr. Hostettler. Thank you. My time has expired.
    The gentleman from North Carolina is recognized, the 
Chairman of the Subcommittee on Crime, Terrorism, and Homeland 
Security.
    Mr. Coble. Mr. Chairman, I have two students visiting with 
me and the photographer's out front to take a picture. So I 
will yield and then I'll pick it up when I come back.
    Mr. Hostettler. Very good.
    The chair recognizes the gentleman from--Oh. I will come 
back this direction. We will not yield, what we'll do is turn 
to the Ranking Member, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you. Mr. Chairman, since we're introducing 
people in the audience, I'd like to introduce Cassandra 
Chandler, who's a Norfolk FBI Agent In Charge, sitting in the 
back.
    Mr. Hostettler. Very good. Thank you for your service.
    Mr. Scott. Sheriff Dever, you mentioned one of your 
deputies was a victim of a drive-by shooting at his home. Did 
you ascertain whether or not this was associated with his 
official duties, or a random act of violence?
    Sheriff Dever. We haven't been able to determine that, no.
    Mr. Scott. A lot of the situations that have been addressed 
have been situations where people are trying to get drugs 
across the border and hundreds of pounds of marijuana, cocaine. 
How much is the value of marijuana or cocaine--how much does 
the value increase when it crosses the border?
    Sheriff Samaniego. The farther you get away from the 
border, it just keeps multiplying. By the time you get to 
Chicago or some of the northern cities, it's probably worth 
five times more than what it is in El Paso. You can go to 
Mexico and buy it for almost nothing. The problem is getting it 
across, and then that's when the value increases.
    Mr. Scott. A briefcase full--how much is a briefcase full 
of cocaine worth?
    Sheriff Samaniego. The 68 pounds that we confiscated last 
week was worth $510,000, street value in El Paso. If you 
managed to get that to Chicago, Minneapolis, North Carolina, 
wherever, it would probably be worth a million, a million and a 
half, sir. Probably more than that.
    Mr. Scott. And so this kind of creates a problem. If people 
know they can make that much money just by getting it across, 
you have an economic incentive to try as many times--even if 
you catch half the people trying, it's worth it for them to try 
to pay people to keep trying.
    Is there any real likelihood that we'll be able to seal the 
border from people trying to get drugs across the border with 
that kind of economic incentive?
    Sheriff Samaniego. In 1960, when I was working narcotics--a 
long time ago--I had a Mexican drug enforcement agent tell me, 
As long as you have a dollar on the U.S. side and I have what 
you want, we are going to get it there to you.
    Mr. Scott. Are the civilian organizations helping with 
border patrol, are they helpful or counterproductive?
    Sheriff Dever. Mr. Chairman, Mr. Scott, Cochise County was 
the breeding ground, I guess, for the Minuteman Project, which 
is one of the activities you probably are talking about. In 
terms of having an immediate impact during the 30 days that 
they launched their major operation on the flow of illegal 
immigrants through the area, there probably was not--there was 
a significant impact in the specific areas that they were 
watching. But that's true of the Border Patrol as well and true 
of sheriff's deputies as well--where we are, there is no crime; 
where we're not, there's a lot of it.
    And so, yes, there was an effect there. The most 
significant effect of that, the Minuteman Project, really was 
to capture the attention of the Nation in terms of focusing on 
the problem. And since then, the dialogue has really expanded 
regarding this issue. So in that way, to me, it was beneficial.
    Sheriff Garrison. I would like to add to that, too, Mr. 
Scott. Also, when Arizona began their Minuteman Project, it 
pushed everybody east into New Mexico and our problems doubled. 
I mean, we had a lot more problems there. So that was one of 
the effects that we felt from Arizona having started that 
Minuteman Project.
    Mr. Scott. So it was helpful where they were, but 
counterproductive where you were?
    Sheriff Garrison. Yes, sir. Without going across the whole 
line, it did just that.
    Sheriff Gonzalez. Mr. Scott, we have not--in Texas it's a 
bit different than Arizona, as we all know. Well, Texas is 
different in many things, but one of them is that all that land 
along the riverbank is privately owned. We have had some of 
these volunteer groups contact with sheriffs along the border. 
In one particular case, this particular group told the sheriff 
that they were not too much interested because they were not 
getting a lot of publicity.
    In the south Texas area, in one place where they were at, 
there were some problems. They were trying to stop people--
families, U.S. citizens--with longarms and pickup trucks, and 
these people were afraid.
    Mr. Scott. I yield back.
    Mr. Hostettler. The chair recognizes the gentleman from 
North Carolina, Mr. Coble, at this time.
    Mr. Coble. Thank you.
    Mr. Hostettler. I will have to leave the proceedings. I 
want to thank you myself, gentlemen, for your testimony and 
your service to our country because you are in fact aiding our 
country and our security.
    I will yield now and ask the gentleman from North Carolina 
if he will assume the chair.
    Mr. Coble [presiding]. I thank the Chairman. And sheriffs, 
I thank you all for being here as well.
    Sheriff Dever, you mentioned in your testimony that one of 
your narcotics task force supervisors was a victim of a drive-
by shooting. Do incidents such as that cause you to believe 
that violence against law enforcement personnel will become 
more frequent, thereby indicating that communities along the 
border are at risk of becoming as violent as some of their 
Mexican counterparts?
    Sheriff Dever. Chairman Coble, while you were out of the 
room Mr. Scott asked a question relative to that, too, and 
asked whether or not we were able to verify if that shooting 
was associated with the narcotics trade. We have not. However, 
the location of his residence is such that a random shooting 
would be highly unlikely. But as far as physical evidence for 
specific verification, it's not there.
    We receive, sir, on a routine, regular basis, intelligence, 
notices from Federal agencies and State agencies, information 
on many of the cartels who have put out hits on specific law 
enforcement officers or for any law enforcement officer. We 
take those all very seriously. The frequency of those 
notifications has increased dramatically over the last few----
    Mr. Coble. Thank you.
    Sheriff from El Paso.
    Sheriff Samaniego. Yes, sir.
    Mr. Coble. In your testimony you mention that oftentimes 
drugs are transshipped--once they come to El Paso, then they 
are disseminated here, there, and yonder. And you mention 
Greensboro, North Carolina, which is located in my district. 
And having said that, Sheriff--and Mr. Scott may have touched 
on this in my absence--describe the level of cooperation that 
you all receive from your Federal partners in intercepting and 
stopping these drug shipments.
    Sheriff Samaniego. El Paso County is famous for having 
probably the biggest group of Federal, State, county, city 
officers that get along quite well. We believe in working as a 
team. And I don't remember ever having any problems with any 
agency. I have officers assigned to nine different task forces, 
with FBI and DEA, ICE, U.S. Marshals, everybody. And we get 
along fine. Can we improve? Yes.
    Mr. Coble. Of course, we could all improve.
    Sheriff Samaniego. Yes.
    Mr. Coble. Sheriff Gonzalez, you may or may not know this--
or give me the approximate figure of the number of deputy 
sheriffs who have been injured by cross-border sniper fire. And 
is it your belief that this is simply another form of 
intimidation of law enforcement, or are there more sinister 
reasons or motives behind these actions?
    Sheriff Gonzalez. Chairman Coble, as far as I know no 
deputy sheriffs have been injured. As far as I know. However, 
threats, yes. There was an incident immediately after the 
Hudspeth County incident where three individuals drove in from 
Mexico, across the Rio Grande River, went to a deputy sheriff's 
home, threatened his wife by telling her that if her husband 
would go back--or rather, that they not go back to the area, or 
else.
    There's been many, many threats. I understand we are on a 
list of targets by cartel members. So there are many threats 
against us.
    Mr. Coble. Sheriff Garrison, do you have any input on this, 
or any opinion?
    Sheriff Garrison. Yes, sir, I would like to--I was speaking 
with Sheriff Hall of Hidalgo County just a couple of days ago, 
and he had advised me that in the recent past, a month or so 
ago, that over the last month he's had two of his officers that 
had attempted to make a traffic stop, routine traffic stop, in 
their area, and unknown to them the vehicles were carrying a 
load of narcotics. The suspects turned their cars around and 
immediately headed toward the border in a high-speed chase, 
running through school districts, school zones where kids were 
outside. One of the officers did make a traffic stop and got 
the vehicle stopped for a few minutes, and I guess the suspect 
then took off and turned around and tried to come back and run 
over the officer. The officer was able to get out of the way, 
and he then ran the car and then proceeded across the border. 
That's happened twice in the last month.
    Mr. Coble. Thank you, sir.
    Well, gentlemen, it is my belief--Mr. Scott and I have 
talked about this many times on our Subcommittee--that this is 
a situation that turning a blind eye to it or a deaf ear to it 
serves no good purpose, because it ain't going away. It's got 
to be resolved. And I commend you all for what you all do 
daily.
    And Mr. Chairman, I've got to go to another meeting as 
well, but I'm going to try to come back. But if I don't get 
back, thank you all for being here.
    Yield back.
    Mr. Keller. (Presiding.) Thank you, Mr. Chairman. I yield 
to the gentlelady from California.
    Ms. Waters. Thank you very much, Mr. Chairman and Members. 
I came today to basically say thank you to the sheriffs and 
local law enforcement who are confronted with this huge and 
what appears to be intractable problem. I commend you for your 
courage. And I wonder why we keep having these hearings, 
because all of these Members here, on both sides of the aisle, 
know what's going on on these borders. I'm from California. I 
know what's going on.
    The fact of the matter is Mr. Chertoff at Homeland Security 
is not doing his job. The President of the United States has 
turned a blind eye. Members on the opposite side of the aisle, 
many of them know what's going on, they would like to do 
something about it, but most of them don't have the courage to 
confront the President of the United States about this issue. 
So you linger with this problem. Our country is at risk. Our 
borders are not protected. The homeland is not secure. And 
there's no commitment by this Government to do it.
    And so with all that you do and all that you say in coming 
here today, it's not going to help any until, you know, the 
President decides to do something, till Mr. Chertoff stops 
making excuses about what he knows or does not understand about 
the border crossings. You have told him about these incursions. 
He's denying them. And that's your homeland security chief.
    So I thank you for being here, but until the President and 
the people in charge of this country decide that they want to 
do something about it, absolutely nothing is going to happen. 
They're going to send you back with your limited resources, 
with you trying to do the work that the Federal Government 
should be doing. And people are going to say nice things to you 
when you come here, but you're going to be left on your own.
    And I challenge my colleagues on the opposite side of the 
aisle, and the President, and Chertoff, to step up to the table 
and respond. The facts are undeniable. We all know what's going 
on. As a matter of fact, again, I thank you for being here, but 
if I were you, I wouldn't waste my time any more coming back 
here. You've told them over and over again. Either they're 
going to do something or the American people are going to turn 
us all out of office.
    Thank you very much.
    Mr. Keller. Well, thank you. This time I'm going to yield 
myself 5 minutes to ask you some questions.
    I'm going to direct my questions to the issue of the 
Mexican military assisting the drug cartels. I strongly condemn 
the Mexican Government for allowing the Mexican soldiers to 
help drug cartels smuggle drugs into the United States. If 
Mexico cannot control its own military, then it makes no sense 
for the U.S. Government to give the country of Mexico $63 
million a year in foreign aid that could be used to attack 
Border Patrol agents and local sheriff's deputies.
    There have been 231 instances of illegal incursions by the 
Mexican military or law enforcement since 1996. One of these 
instances was described in detail by Sheriff Samaniego on 
January 23, 2006, in Hudspeth County, Texas. Now, in that 
particular case, we had a sheriff's deputy who was actually 
involved in that incident come testify before Congress last 
month. Sheriff's Deputy Lagaretta testified that he saw Mexican 
soldiers wearing Mexican military fatigues, wearing Mexican 
military caps, driving Mexican military Humvees, and they were 
heavily armed with Mexican military machine guns. He said under 
oath that he had no doubt they were Mexican military soldiers, 
and he believed it was the cartel buying off the military.
    I have studied this incident and many others, and the 
country of Mexico has in each case offered three defenses. 
First, didn't happen; never happened. Second defense, they must 
have been stolen uniforms that the drug cartel was wearing; it 
couldn't have been the Mexican military. And third, every 
organization has a few bad apples, we'll look into it and get 
back with you.
    Let me ask you--let's start with Sheriff Gonzalez--what is 
your opinion of the situation of the Mexican military assisting 
drug cartels? Is this a case of stolen uniforms? Have you ever 
heard of it happening in your county? What's your opinion about 
this issue?
    Sheriff Gonzalez. Mr. Keller, this has happened in our 
county several times. Like I mentioned earlier, the incursion 
of 20, 25 individuals wearing uniforms. The calls from our 
residents, people tell us of soldiers getting off of boats, 
carrying weapons. As far as my interpretation of it, Mr. 
Keller, if I have a report that a person is stopping vehicles 
at 2 o'clock in the morning and is wearing a Zapata County 
Sheriff's Office uniform, and I don't know of no deputy sheriff 
doing that, my duty to my citizens and to my constituents would 
be to investigate and see who it is that is impersonating one 
of my officers. And from my opinion, sir, and the Mexican 
military, if it's not Mexican military, and it's stolen 
uniforms or stolen Humvees or whatever the case may be, it's my 
opinion that the Mexican Government should investigate to see 
who it is that's pretending to be military and why it is 
they're giving them a bad name. I would immediately cause that 
investigation.
    Mr. Keller. Sheriff Garrison, do you think this is a case 
of a few bad apples being bought off by the drug cartel, or is 
it stolen uniforms? What's your opinion of this situation?
    Sheriff Garrison. Sir, in New Mexico, it was two and a 
half, 3 years ago--I'm not quite sure of the dates--I know just 
right around Santa Teresa, New Mexico, there was an incident 
that occurred with the military and our Border Patrol. And 
there were actually shots fired at that time. The Mexican 
military believed that our Border Patrol agents were on the 
Mexican side of the border, actually chased them around over on 
the United States side.
    Mr. Keller. You think it's a real problem, it's not 
imagination?
    Sheriff Garrison. Yes, sir, it is a real problem. Yes, sir.
    Mr. Keller. Sheriff Dever, do you have any comments on this 
Mexican military assisting drug cartel issue?
    Sheriff Dever. My personal experience is that I have never 
witnessed an incursion by the Mexican military. We've dealt 
with them right on the fence. I was curious a little earlier, I 
heard something I'd never heard before and that is that the 
Mexican military is, by rule, precluded from coming within 5 
kilometers of the fence. I'd like to investigate that; I've 
never heard it. If that's the case, we've had--Mexico has 
experienced many violations of that, because we have dialogue 
with them at certain places.
    Certainly, any of their explanations are possible. I 
believe that in fact there are units in the Mexican military 
that are supporting drug smuggling. I have a lot of information 
to sustain or support that idea.
    Mr. Keller. And Sheriff Samaniego?
    Sheriff Samaniego. Sir, I have no doubt in my mind that in 
the Hudspeth incident of January the 23rd, that the Mexican 
army was indeed involved. I've been doing a lot of research and 
I found that between 1996 and 2000 over 150 Mexican officers, 
army officers, were accused of working for the cartels, 
including three generals, one of them General Rebollo, who was 
the drug czar of Mexico. So, you know, it's not something that 
we just invented. It's been going on. And the Mexican army has 
been given almost exclusive responsibility for drug 
interdiction on the Mexican border because of the corrupt law 
enforcement agencies that had that responsibility before.
    Mr. Keller. Thank you, Sheriffs. At this time I yield to 
the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. And I want to thank the 
sheriffs for testimony here and those of you who are here in 
support also of the witnesses that are here today. And I want 
to mark a measure of disagreement with the gentlelady from 
California in that I think your presence here matters. I would 
ask you that, when there's a forum, do keep coming back because 
sooner or later the President will hear this message. We are 
sending a message to him today. And it's the responsibility of 
the Commander in Chief to control our borders. You can't be a 
nation if you don't have a border. You can't call it a border 
if you don't control the border.
    There is a series of things that I'm thinking about as I 
listen to this testimony, and many of my questions have been 
answered. But there's been a report that I've received that 
says that there are predominantly four major kinds of illegal 
drugs that come across the border--methamphetamines, cocaine, 
heroin, and marijuana. Have you noticed--and I'll just ask 
general questions of whoever might want to answer it--have you 
noticed an increase in the amount of cocaine coming across the 
border in proportion to that of methamphetamines? Have you seen 
that there is Colombian illegal drugs coming in as part of 
this, and is there evidence that the Colombian drug cartel has 
now linked up with the Mexican drug cartel and that's pouring 
across our southern border as a network?
    Sheriff Samaniego. It's my understanding that the Mexican 
cartels, they used to help the Colombian cartels. And they 
finally got wise and they decided, well, you know, why can't we 
do it instead of being paid small amounts to help them? Seventy 
percent of the cocaine comes from Colombia through Mexico into 
the United States. Most of the heroin that comes into the U.S. 
is from Mexico, but the cocaine, the majority of it comes in 
from Colombia, sir.
    Mr. King. Thank you. And that, I think, answers it. Unless 
there's some addition to that, I won't ask each of you to 
answer, but you surely have an opportunity.
    Sheriff Dever. Mr. King, I'd just add that we're seeing a 
really significant increase in methamphetamine crossing into 
the United States, coming out of superlabs in Mexico. And as 
pervasive as that addiction is throughout our country, I think 
it's of grave concern to all of us.
    Sheriff Gonzalez. Very briefly, Mr. King, we have seen an 
increase of methamphetamine, and the southern part of Texas is 
seeing a tremendous increase in Chinese heroin coming in also. 
Zapata County, we're also seeing a big increase of heroin 
coming into the country also.
    Mr. King. Thank you. Does anyone have an idea or have you 
seen numbers as to how many dollars worth of illegal drugs come 
across our southern border in a year?
    Sheriff Samaniego. Well, it's in the billions. I've heard 
different amounts, up to $300 billion a year. That's how much 
the industry is worth. And we're the consumers here in the 
United States. That's another problem that probably we need to 
look at.
    Mr. King. Thank you. And the reason--I mean, there are 
certainly obvious reasons why I ask that question, but I'm 
thinking about $30 billion-plus that gets wired down there from 
illegal workers in the United States, how many billion dollars 
go to pay for the drugs, what this really means to the Mexican 
Government, for example, and how hard it's going to be to fight 
this battle when they have a powerful economic incentive to be 
pushing illegal drugs here, pushing people here, because 
they're being paid in tens and hundreds of billions of dollars.
    Have you seen any evidence--and I'll say the Secretary of 
Homeland Security has said that they will eliminate the catch-
and-release program. Has anyone seen any evidence that he has 
been successful in that endeavor?
    Sheriff Dever. Well--and I don't know how they would 
measure success. Most of the OTM--when we encounter a group of 
illegals and we turn them over to Border Patrol, they're 
removed from our sight and we really aren't fully aware of what 
happens. Mexicans, supposedly, are VR'd, voluntarily returned, 
immediately to Mexico and the OTMs transferred somewhere for a 
detention hearing. But we see the same people, be they 
Salvadoran, Honduran, Guatemalan, Mexican return day after day 
after day.
    Mr. King. I would put out there was some testimony received 
in last year that stated there were 1,159,000 illegals stopped 
at our southern border last year. Excuse me--yeah, 1,159,000 
stopped; perhaps there could have been out of 3 to 4 million 
that crossed. Sixteen hundred and forth adjudicated for 
deportation, a lot of them promised to go back.
    If I could add one quick question, Mr. Chairman, and that 
is that--I'm supportive of your initiative, but I want to ask 
this question. That is, is there merit to having some military 
position closely enough to the border that they can deploy in 
the case of border conflict, or at least have surveillance in 
the air so we can get pictures of Mexican military maneuvers 
and get some solid evidence to be able to address this?
    Sheriff Dever. If I may, very quickly, and my colleagues. 
It's been interesting. I've been a proponent for a long time of 
having National Guard troops deployed on the border for that 
very purposes, for purposes of observation, communication, and 
support. Just recently, our Governor made a sea change and, I 
know, just this last week talked to Secretary Rumsfeld about 
deploying National Guard, which is a 180-degree change from the 
position she previously occupied. So there is a role for the 
military to play on the border in something other than a law 
enforcement function.
    Sheriff Samaniego. It's such a vast area. I don't know 
where--you would have to have them all over the place in order 
to respond, so I don't believe that's a good project to work 
on. And we had Marines stationed around El Paso, Hudspeth 
County, observation posts, and a young sheepherder got killed. 
I don't know if you remember that. And then they pulled 
everybody out. Recently they had the Stryker units operating in 
New Mexico around Santa Teresa, close to El Paso. And they were 
very effective, but they were miles away, just observing.
    Frankly, I believe this is a problem for the Border Patrol 
and law enforcement to take care of. That's our job. Armies are 
trained to kill, to go to war. We receive different training. 
Our job is to maintain the peace.
    Mr. Keller. Thank you. The time for Mr. King has expired, 
but we will come back to you, Mr. King, on the second round to 
follow up.
    I yield to the gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I don't think the remarks from the gentlelady from 
California ought to be misinterpreted. We appreciate your 
testimony; we just question whether or not those that need to 
hear it are hearing it. You can't say it too often.
    Sheriff Samaniego, on the question of whether or not the 
Mexican military was involved, do we have specific evidence 
that a specific individual known to be in the military was 
caught in illegal activities on our side of the border?
    Sheriff Samaniego. I'm not aware of that, sir.
    Mr. Scott. Because there's some question as to whether the 
uniforms are stolen. We don't want to make accusations for 
which there is no evidence. If the----
    Sheriff Samaniego. The reason I mentioned the madrinas--and 
I understand that the army also uses madrinas. I have no 
evidence to present to you, just what I've heard. And these 
people, they can pass as an army or as a group of police 
officers, and then if they're found out, the Government 
abandons them totally--you know, we don't know them, we don't 
know anything about them, they stole the uniforms, whatever.
    Mr. Scott. This is the Judiciary Committee, not 
international relations, so we don't want to provoke any more 
than we have to.
    If someone is apprehended, having illegally crossed the 
border, you're trying to coordinate Federal, State, and local 
officials, who should be responsible for the person--Federal, 
State, or local?
    Sheriff Samaniego. When we encounter an illegal alien on 
the U.S. side--and we don't go knocking on doors, you know, 
through our investigation if they're involved in a crime, and 
we learn that they're illegally here, we call the Border Patrol 
or we transport them to the Border Patrol center and they 
take----
    Mr. Scott. What should happen at that point? I mean, it's 
very expensive to lock people up. You're talking 15,000 to 
50,000 a year to lock somebody up. Is that somebody that ought 
to--should your county pay for that?
    Sheriff Samaniego. Well, we do pay to some degree because 
we do house quite a few criminal illegal aliens. And the SCAAP 
funding has almost disappeared, which--you know, it gives the 
county back a little bit of what they spend keeping people in 
jail, taking them to the hospital, prosecution, court costs, et 
cetera. And that's another area that we have a beef with the 
Federal Government, because we're not being reimbursed.
    Mr. Scott. And is this a local function, a State function, 
or a Federal function? And whoever's function it is ought to 
pay for it. Whose function is it to control the border? Should 
that come out of your county budget?
    Sheriff Samaniego. I don't believe so. If someone violated 
the law by coming into this country illegally, and then they 
commit a crime, why should the State or the county have to pay 
the cost when the initial crime was a Federal violation?
    Mr. Scott. Let me ask you one final question. You 
indicated, Sheriff, that if there's dollar on this side of the 
border, somebody is going to come across to get it. What--I 
guess if you look at why people cross the border, some for drug 
trade, some to get jobs, what can we do to reduce the reason 
people would want to cross the border?
    Sheriff Samaniego. I heard the gentleman from the Border 
Patrol, Mr. Bonner, yesterday testified, and he says you have 
to eliminate the jobs that are available. As long as there are 
jobs here, they're going to come looking for them. If there are 
no jobs, or the sanctions are so severe that the people that 
own the businesses are not going to hire them, then that may 
slow down the invasion--that I call it.
    Mr. Scott. Are there criminal activities other than drugs 
involved that would cause people to want to cross the border? 
Other than drugs?
    Sheriff Samaniego. In El Paso, they recruit young kids, 
they've tried females, they've tried elderly to drive loads 
across the ports of entry.
    Mr. Scott. That's for drugs?
    Sheriff Samaniego. Drugs, yes, sir.
    Mr. Scott. Other than drugs are there criminal--we 
understand why they would want to cross with drugs, because 
there's so much money involved in that. Are there other crimes 
that are involved, other than drug crimes, that would cause 
people to want to cross the border?
    Sheriff Samaniego. Yes, sir. Most people think that the 
power of the cartel ends at the border. I'm here to tell you 
that it doesn't end there. They have elaborate smuggling 
transportation and delivery systems here in the United States.
    Mr. Scott. What are they smuggling other than drugs?
    Sheriff Samaniego. Well, we believe that the same 
organizations are now smuggling the illegal aliens----
    Mr. Keller. Mr. Scott's time has expired. Sheriff, I'll let 
you finish your sentence.
    Sheriff Samaniego. I'm finished, thank you.
    Mr. Keller. Mr. Scott, I'm sure we'll be able to come back 
to you to finish up with any other questions.
    Mr. Scott. I'm finished. Thank you.
    Mr. Keller. Okay. I'll yield myself 5 minutes at this 
point. I want to now switch to a topic of OTMs, criminal 
examples of other than Mexicans committing crimes. Last year, 
our Border Patrol agents arrested 155,000 illegal aliens from 
countries other than Mexico attempting to cross over. They 
included illegal immigrants from Iran, Iraq, Afghanistan. Our 
CIA Director has testified that this is a very serious national 
security problem. I recently spent a week on the Mexican-
California border and I have personally spoken with Border 
Patrol agents who have apprehended suspects on the terrorist 
watch lists. And on the day I was there, two illegals from 
Pakistan were captured.
    So let me begin with Sheriff Gonzalez and ask you if you 
can provide me any examples of criminal OTMs apprehended in 
Zapata County or nearby.
    Sheriff Gonzalez. Mr. Keller, there are so many of them 
nowadays. Just right before coming over here, there were 20 
Guatemalans apprehended and two Mexicans apprehended. This is 
on a daily basis. We are seeing in Zapata County people from 
Uganda, people from Afghanistan, people from many countries 
that have entered through Zapata County. We are seeing also, we 
have seen people all across--my testimony, one of the heads of 
the Mara Salvatruchas in Brooks County, jackets found in Jim 
Hogg County. In Maverick County, over 127,500 OTMs were caught 
last year in the Del Rio, Texas area. It's something where 
we're seeing people from all over the place coming into the 
country.
    We're not saying--again, and I want to clarify that, Mr. 
Keller--we're not trying to say we want to be immigration 
officers. What we're trying to say is it concerns us to know 
who is coming into the country. We have people--and no 
reflection on anybody with tattoos, but you have people with 
tattoos all across their chest, you know, advertising what 
gangs they're with, not hiding those tattoos anymore. You know, 
people with Texas Syndicate, Mexican Mafia, you know, the 
Salvatruchas, Pistolleros, Latinos--it's everywhere, and it's 
all over South Texas.
    Mr. Keller. Well, let me ask you about--you mentioned even 
people from Afghanistan coming through your portion of Texas, 
Zapata County. When you make that detention, how do you 
determine if that person is on the terrorist watch list. Is 
running it through the NCIC computer system enough, or is there 
a separate approach? How do you go about that?
    Sheriff Gonzalez. What we do in Zapata, sir, is that 
anybody that we think may be in the country illegally, we refer 
them to Border Patrol. What Border Patrol does later on, we 
don't know, sir. We practice--we have the practice of not 
asking people what their nationality is or their citizenship is 
because we're not allowed to ask, by law. So we try not to 
violate people's rights. So we refer them immediately to Border 
Patrol. Border Patrol makes that determination as to what 
they're going to do with them.
    Mr. Keller. So you don't know for sure if they're on that 
terrorist watch list because you turn those folks over to the 
Border Patrol?
    Sheriff Gonzalez. We don't--no, sir. Although we have a 
very good working relationship with Border Patrol, like I 
mentioned earlier, and the ICE and just about every Federal 
agency, there are many, many times where you transfer a 
prisoner to a Federal agency and you never, ever hear back as 
to what that may have happened.
    Mr. Keller. So how do you know that some folks you arrested 
or stopped were from Afghanistan?
    Sheriff Gonzalez. Well, not in Zapata. Afghanistan, I was 
talking about the border area. But in Zapata, some Ugandans 
that we found out through agents, through the actual patrol 
officers, because it's--the higher the level of, I guess of 
command, it seems to be a little bit less information that 
you're able to obtain. But we have a good working relationship 
with the agents.
    Mr. Keller. Sheriff Garrison, do you have anything you want 
to add to the situation with OTMs? Have you seen examples--any 
particularly bad characters?
    Sheriff Garrison. This last year we did have a murder in 
our county and it was committed by a Guatemalan, person from 
Guatemala. He did take a lady out into the desert and left her 
dead body out there pinned to the ground with cement stakes. 
And that did occur just recently.
    Mr. Keller. Sheriff Dever, do you have anything to add to 
this situation?
    Sheriff Dever. You know, we just don't break those out in 
terms of nationality other than if they're illegal alien or not 
illegal alien. But their country of origin generally isn't a 
factor in terms of our tracking data.
    Mr. Keller. Okay. How about you, Sheriff?
    Sheriff Samaniego. I'm not aware of any in our county. Most 
of the OTMs were in Eagle Pass and Del Rio area. That's where 
they were being released. El Paso County had a few, probably 
the least of any place in Texas.
    Mr. Keller. Okay. At this time, I yield to the gentleman 
from South Carolina. Mr. Inglis, any questions?
    Mr. Inglis. No.
    Mr. Keller. Here to listen?
    Let me yield to the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I did have a series of 
questions I didn't quite get to, and I want to first ask the 
question--we did pass legislation here in the House to build 
700 miles of fence--not 2,000 but 700. And I just would like to 
ask for the record if we could do that in a fashion that was 
engineeringly sound, with good forethought and connection with 
a lot of support in entry and exit stations.
    Does that make your job easier? Does it accomplish part of 
this goal?
    Sheriff Dever. I believe that building--building fence in 
certain areas makes a lot of sense. Building it along the 
entire 2,200 miles does not because, A, building a fence is not 
a deterrent unless you have somebody to monitor the fence, the 
ability to do that either electronically or--even 
electronically you have to have somebody able to respond to a 
sensor hit.
    It's important to understand that you cannot sustain a 
smuggling operation without infrastructure on both sides of the 
area, the corridor, within reasonable distance. And just to go 
out in the middle of nowhere in the desert and start smuggling 
people or narcotics isn't a likely scenario from the south 
side. There has to be, you know, something there to support it 
and sustain the effort.
    And so if the fence is build around, you know, whatever the 
reasonable distance is in those areas where the infrastructure 
exists primarily or initially, that makes sense to me.
    Mr. King. Thank you.
    Sheriff Garrison. Yes, sir, I'd like to respond. In New 
Mexico, we have a lot of area that has no fence or anything. We 
have markers on certain hills that are a mile apart. Many of 
the ranchers who put up fences walk out the next day, after 
spending thousands of dollars to put those fences up, walk out 
and find them missing and having been taken over to the Mexican 
border to be used as fence over there.
    I do believe that it would be good to have some kind of a 
marker, some kind of a line there. A vehicle barrier would 
work, would accomplish a lot of good.
    Mr. King. Thank you, sir.
    Sheriff Gonzalez. Yes, Mr. King, there are some areas along 
the border that a fence would be useful. In most parts of 
Texas, it would be very hard. You have areas like Brewster 
County, Maverick County, you have areas like Val Verde County 
where a fence would practically be almost impossible to build 
because of the canyons and things like this.
    Also, what worries us about a fence is the maintenance of 
the fence. Like Sheriff Garrison, who will respond whenever 
somebody needs to respond to it when there is really nobody 
available to respond if something happens to this fence.
    We have also seen in the areas along the border the 
shootings from Mexico at cameras. They are really non-working 
cameras that Border Patrol has up there, but my understanding 
is that there would be stadium lights along fences. I am 
certain that there will be many people shooting at these 
lights, and, again, the expense and the maintenance of the 
lights and things like this.
    Mr. King. Thank you. Sheriff Garrison, did I hear you 
testify that you don't inquire as to the citizenship of 
individuals that you stop?
    Sheriff Garrison. When we respond to a crime, we respond to 
the crime, and we react to whatever we come into contact with. 
We don't ask anyone for their citizenship or anything like that 
to initially respond. If we are on patrol or something like 
that and we feel that we have run across some undocumented 
aliens, then we do report it to Border Patrol.
    Mr. King. I just wanted to clarify that. All of you have 
confidence that you have the authority to ask, inquire as to 
the citizenship of anyone that you might want to stop unless 
you are representing a sanctuary policy county.
    Sheriff Garrison. Yes, sir.
    Mr. King. I just want to make sure that was clearly in the 
record.
    And then we have heard testimony in the past about the jobs 
magnet, and you have spoken to that, about how that is going to 
pull people in. Does anyone have any comments on birthright 
citizenship as being an incentive that you might see as part of 
it? Sheriff Dever?
    Sheriff Dever. I will just say for my part, it's easy, 
tempting to get caught up in those arguments. Frankly, sir, our 
focus and primary interest and area of influence is the law 
enforcement arena, and that's really where we try to 
concentrate our energies because that's something we can do 
something about. I think we all have opinions about 
socioeconomic programs, but I think it's our common belief that 
none of those can be successful and dialogue and discussion 
about them aren't very meaningful if we cannot control our 
borders.
    Mr. King. Are you saying traffic, more out-of-proportion 
traffic in pregnant females that might be part of that 
demographic?
    Sheriff Dever. We see a lot of women and children where we 
never did before, extended families to include pregnant women.
    Mr. King. Thank you. My time is up. I'd yield back. Thank 
you.
    Mr. Keller. I thank the gentleman from Iowa.
    I'd like to focus on just two areas: one, the lack of 
prosecution of some folks, and then, two, I want to ask if you 
were king for a day, what you would do to solve this problem.
    When I went to the California-Mexican border, one of the 
most frustrating things for some of the rank-and-file Border 
Patrol agents is they see the same exact alien smugglers over 
and over and over and over and over, and they can understand 
with some sympathy why they see the same regular Mexicans 
trying to cross over because of catch-and-release, but they 
couldn't understand why the U.S. Attorney wouldn't prosecute 
these habitual alien smugglers.
    What's the solution to this issue? Is it more money for 
more prosecutors? Or is it making this a higher priority? Or 
what do you think we should do about this lack of prosecution 
of these folks who make their living by doing alien smuggling? 
Sheriff Garrison?
    Sheriff Garrison. Just recently, sir, I had a meeting with 
our district attorney and with the U.S. Attorney's Office, 
representation of the U.S. Attorney's Office, and we brought 
this up. The U.S. Attorney's Office just spoke of how many 
cases they had and how they were unable to take on so many 
more, so they had to set thresholds.
    My problem is when they set a threshold, all it does is the 
people who say they'll get charged when they have six or more 
aliens, they'll start hauling five. I mean, and that's what 
they do.
    Mr. Keller. I'm told that I need to let you go to catch a 
plane. If anyone has anything you definitely have to say to get 
this off your chest, I'd be happy to----
    Sheriff Samaniego. We would love to stay here all day, but 
if we stay any longer, we're not going to go home tonight.
    Mr. Keller. Okay. Well, thank you all so much for being 
here. Your testimony has been very helpful and informative.
    Thank you.
    [Whereupon, at 2:15 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress from the State of California
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of the Honorable Darrell Issa, a Representative in 
                 Congress from the State of California
    Thank you, Mr. Chairman. I greatly appreciate your holding this 
important hearing. For decades we have worked towards solutions to stem 
the flow of narcotics and illegal immigration across our southern 
border. It is infuriating when the Mexican government works against us 
rather than with us in this effort. It is timely to examine the issue 
of Mexican government-aided violence along the southern border.
    Corruption within the Mexican government and its failed economic 
system has already been evidenced by the fact that one out of ten 
people born in Mexico living legally or illegally in the United States. 
However, Congress has allocated billions in taxpayer funds to aid 
Mexico over the years to help to improve the lives of the average 
Mexican citizen. For example, in 2005 the United States donated 
$13,392,000 through the Economic Support Fund, and $39,680,000 directly 
to Mexico to improve narcotics control. One would hope that this 
generosity would encourage the Mexican government, federal and state, 
to support efforts to control immigration into the United States and 
the flow of narcotics.
    Unfortunately, the events of January 23, 2006 and others 
demonstrate that our efforts are seemingly wasted. It comes as little 
surprise that the same government that did little to deter Mexican 
nationals from entering the United States to steal Suburbans in the 
1980's and 1990's for use by Mexican federal agents would be complacent 
in preventing its military from aiding the drug and human trafficking 
business. When the Mexican military crossed into U.S. territory on 
January 23rd, we witnessed yet another example of corruption within the 
Mexican government. Mexico must act to cease this criminal conduct. If 
Mexico cannot uphold its end of the bargain, why should we continue to 
aid our hapless neighbor?
                               __________
Prepared Statement of the Honorable Louie Gohmert, a Representative in 
                    Congress from the State of Texas
    First of all, let me thank the Chairman and Ranking Members of both 
subcommittees for holding this extremely important hearing. Also, I 
would be remiss if I did not take this opportunity to thank the Texas 
Border County Sheriffs who have already been to Capitol Hill in an 
effort to educate members about the dire situation on our southern 
border. We appreciate them taking time out of their WAR to be with us 
today.
    No more serious of an issue could exist before this Congress, this 
Nation--than the WAR that is being waged on our southern border. While 
most of the country knows that we are actively fighting the War on 
Terrorism--only a small fraction of the American public is aware of the 
battle our local law enforcement officers are waging on our border with 
Mexico.
    Earlier this month, I was able to participate in a meeting with 
several Texas Border County Sheriffs and their reports about the lack 
of border security funds, personnel detention facilities, and equipment 
were very grim to say the least. The sheer length of the border between 
Texas and Mexico make it difficult to police. Unfortunately, the party 
responsible for policing an international border is the Federal 
government, not local law enforcement who are doing the best they can 
to keep our citizens safe.
    After listening to the sheriffs and hearing the truth about the 
situation along our border with Mexico, my first reaction was that the 
Judiciary Committee also needed to be educated on this issue. 
Immediately I spoke with Chairman Hostettler about scheduling a hearing 
and would like to thank him for recognizing the importance of having 
this hearing and the expedience with which it came to fruition.
    On February 8th of this year I wrote Senate Judiciary Chairman 
Arlen Specter asking him to immediately schedule H.R. 4437, the Border 
Protection, Antiterrorism, and Illegal Immigration Control Act of 2005 
for markup in the Judiciary Committee. The sheriffs, and a majority of 
the members in the House, would like to see the entire bill become law 
but if the bill contains too many contentious provisions which may 
jeopardize swift passage of the bill in committee, I would ask that 
Section 607 be stripped out of the bill and passed as a stand-alone 
measure. This section is absolutely critical to securing the border and 
ensuring the safety of all American Citizens. This problem will not go 
away and again, it is the Federal government's job to tackle the 
problem of border security--or at least give local law enforcement the 
tools they need to continue defending the border. I believe Section 
607, if signed into law, will be an important first step towards 
securing our border.
    Again, thank you all for coming before the subcommittees today to 
testify. We all appreciate your efforts to protect your constituents 
and all American citizens from a terrorist attack that will come 
through the southern border if the Federal government continues to do 
nothing to seal up our porous borders.
    Thank you again Chairman Hostettler and Chairman Coble for holding 
this hearing.
                               __________
        Prepared Statement of Vivian Juan-Saunders, Chairwoman, 
                    Tohono O'Odham Nation of Arizona
                            i. introduction
    This statement is submitted by the Tohono O'odham Nation to apprise 
the Subcommittee of the Nation's unique border security challenges that 
derive from the 75-mile stretch of international border that the Tohono 
O'odham Reservation shares with Mexico, and to assist the Subcommittee 
in developing addressing local law enforcement problems with violence 
along the southern border. Before addressing the specifics of these 
issues, my statement will provide general background about the Nation 
and the historical background that created our current border security 
crises.
                             ii. background
    The Tohono O'odham Nation (``Nation'') is a federally recognized 
Indian Tribe in South Central Arizona with over 28,000 enrolled tribal 
members. The Tohono O'odham Reservation consists of four non-contiguous 
parcels totaling more than 2.8 million acres in the Sonoran Desert, and 
is the second largest Indian Reservation in the United States. The 
largest community, Sells, is the Nation's capital.
    As a federally recognized Indian Tribe, the Nation possesses 
sovereign governmental authority over its members and territory. 
Accordingly, the Nation provides governmental services to one of the 
largest Indian populations in America and is responsible for managing 
one of the largest Indian reservations in the America. Moreover, the 
Nation spends approximately $7 million annually from tribal revenues to 
meet the United States' border security responsibilities. The 75-mile 
southern border of our Reservation is the longest shared international 
border of any Indian Tribe in the United States and has created an 
unprecedented homeland security crisis for America.
    Prior to European contact, the aboriginal lands of the O'odham 
extended east to the San Pedro River, West to the Colorado River, South 
to the Gulf of California, and North to the Gila River. In 1848 the 
United States and Mexico negotiated the terms of the Treaty of 
Guadalupe Hidalgo, which among other things, established the southern 
boundary of the United States. The Treaty placed the aboriginal lands 
of the O'odham in Mexico. In 1854 through the Gadsden Purchase, the 
United States and Mexico further defined the southern boundary by 
placing the boundary at its present location cutting into the heart of 
our aboriginal territory. The establishment of the boundary displaced 
the O'odham on both sides of the international border bisecting O'odham 
lands thereby separating the Nation's people from relations, cultural 
sites and ceremonies, and ultimately blocking access to much needed 
health care, housing, and transportation. Not surprisingly, neither the 
United States nor Mexico consulted with the O'odham during the Treaty 
negotiations in 1848 and 1854. Respect for the sovereign status of the 
O'odham was simply ignored.
    The lack of consultation or input from the O'odham continued 
throughout the generations leaving the Nation with a modern-day border 
security crisis that has caused shocking devastation of the Nation's 
lands and resources. The genesis of this crisis stems principally from 
the development and implementation of the U.S. government's border 
policy in the last decade. Again, without the benefit of consulting 
with the Nation, federal border security policy was developed focusing 
on closing down what were considered to be key points of entry along 
the U.S. southern border. This policy was implemented by extensively 
increasing manpower and resources at ports of entry and located at 
popular entry points such as San Diego (CA), Yuma (AZ), and El Paso 
(TX). Rather than preventing illegal immigration into America, this 
policy created a funnel effect causing the flow of undocumented 
immigrants, drug traffickers, and other illegal activity to shift to 
other less regulated spots on the border.
    Due to the lack of border security resources and attention to the 
Nation, illegal immigration through the Reservation has become a prime 
avenue of choice for undocumented immigrants and drug trafficking 
activities traveling into the United States. This has created urgent 
challenges to protect against possible terrorists coming through a very 
vulnerable location on our Reservation and has resulted in an increase 
in crimes, gangs and violence. Although the Nation has neither the 
sufficient manpower nor the resources to adequately address this 
crisis, it continues to be the first line of defense in protecting 
America's homeland security interests in this highly volatile and 
dangerous region.
 iii. border security crisis and border violence on the tohono o'odham 
                                 nation
    The modern day consequences of the border security crisis facing 
the Nation are indeed devastating to our members, our lands, our 
culture and precious resources. While immigrant and drug trafficking 
have decreased on other parts of the southern border of the United 
States, levels have sky rocketed on the Nation causing a flood of 
crime, violence, chaos and environmental destruction on our 
Reservation.
    Currently, it has been conservatively estimated that over 1,500 
immigrants illegally cross daily into the United States via our 
Reservation. A Border Patrol spokesman recently reported that the 
Nation is in the ``busiest corridor of illegal immigration in the 
[America].'' Tribal members live in fear for the safety of their 
families and their properties. Often times, homes are broken into by 
those desperate for food, water and shelter. Indeed, the statistics on 
border violence and crime are staggering:

        <bullet>  In 2004 alone, 27,130 undocumented immigrants were 
        detained and arrested crossing the border on the Nation's 
        Reservation.

        <bullet>  Since October 2003, approximately 180,000 pounds of 
        narcotics have been seized.

        <bullet>  When combining federal and Tribal law enforcement 
        efforts, more than 300,000 pounds of illegal narcotics were 
        seized on the Nation's lands in 2004.

        <bullet>  In 2004, TOPD officers responded to over 6,000 calls 
        for assistance with undocumented immigrant apprehensions; 
        Border Protection estimates over 111,000 individual 
        apprehensions on the Nation's lands in 2004.

        <bullet>  Illegal narcotics seizures more than doubled in the 
        last 4 years to over 70,000 lbs. in 2004.

        <bullet>  Narcotics seizures on the Reservation have included 
        marijuana, cocaine and methamphetamine.

        <bullet>  In January 2006 and February 2006 alone, the Nation 
        seized approximately 9,900 pounds of illegal drugs with an 
        estimated street value worth $7.3 million.

    In 2005, U.S. Customs and Border Protection (USCBP) apprehended 
122,319 undocumented aliens (UDA), of which 7,383 were criminal aliens. 
A significant number of these UDAs are involved in human and or drug 
smuggling and an alarming number of the Nation's members have been 
either coerced and or voluntarily participate in this criminal 
activity. The social impact of these crimes has resulted in gang and 
domestic violence, burglaries, dysfunctional families, seven suicides 
in a one year period, and an increase in social disorder placing 
enormous demands on the resources of the Nation.
    Recent activities along the border clearly demonstrate an increase 
in drug smuggling and reported sightings of what appears to be a 
Mexican military at the southern edge of the border and attacks against 
drug ``back packers'' have increased. On February 6, 2006, a Tohono 
O'odham Nation Tribal Police responded to a village approximately 28 
miles north of the International Border where a Mexican National 
Individual had been murdered execution style with a gunshot to his head 
and several shots to his torso. The murder was witnessed by the 
victim's brother who had fled on foot and called for help at a nearby 
residence. The location of the incident occurred within yards of a home 
where children and elders were at and later discovered to be a high 
narcotics traffic area. Further investigation was conducted by Tohono 
O'odham Nation Tribal Police, USCBP and the FBI. The victim and at 
least five other Mexican Nationals were believed to be marijuana 
backpackers, the suspect shooter was believed to be a Mexican National 
and attempting to steal the narcotics from the backpackers. As of 
today, the suspect and accomplice have not been located.
    Other problems of violence and of national concern have also 
occurred recently on the Reservation. On February 10, 2006 a husband 
and wife tribal members were out gathering wood for cooking in the 
desert near their village when they were approached by an individual 
Mexican national male asking for food and water. The individual then 
pulled a handgun out of his waistband and pointed it at both victims 
stating he was taking their 1981 ford pick up truck and was going to 
leave it in Mexico. The two Tribal members were left stranded out in 
the desert for a period of time until they walked back to the village 
and reported the incident to Tribal Police.
    On February 24, 2006, the Tohono O'odham Nation Tribal Police 
assisted USCBP agents at the home of a tribal member in the village of 
Sells, the capital of the TON. Subsequently, an Iraqi national was 
removed from that same home after it was discovered that the individual 
had lived at the home undetected for several months. The individual was 
apprehended by Customs and Border Protection agents. This incident 
further emphasizes our need to have an effective intelligence component 
for our operations.
    Recent intelligence sharing of information between the Nation and 
USCBP has revealed that they are starting to see an increase of border-
related activity. Such activity includes an increase in the amount of 
undocumented alien foot traffic, narcotics smuggling and vehicular 
traffic, abandoned vehicles, and stolen vehicle recoveries within the 
Tohono O'odham Nation. all of which directly impact the every day lives 
of the Tohono O'odham Nation. The increase in problems have forced the 
Tohono O'odham Police Department (TOPD), a seventy-one (71) member 
police force, to address the unrelenting and increased traffic of 
undocumented immigrants and drug traffickers who cross our border into 
America and related problems they create.
       iv. addressing border violence through increased security
    TOPD provides primary border security law enforcement services in 
addition to public safety within the Nation itself. There are at least 
160 known illegal crossing sites along the Nation's 75-mile shared 
border with Mexico, in 36 locations, and there are no barriers at all. 
Thus, TOPD Officers travel in excess of 200 miles per shift or a yearly 
total of 48,000 miles. On average, each TOPD officer spends 60% of his 
or her time working on border related issues, decreasing the amount of 
time spent on public safety and threatening not only our members but 
threatening the safety of the United States as well.
    Daily confrontations with UDAs require the Nation's Police Officers 
to possess weaponry and protective equipment to ensure the safety of 
their own lives as well as the safety of the tribal community. TOPD is 
the first in line to confront these individuals, which often include 
criminals and possible terrorists. In addition to apprehending UDAs, 
TOPD officers investigate crimes committed by UDAs, including homicides 
and unattended deaths. In 2005 alone, TOPD investigated 62 deaths.
    In an effort to combat the increase of border security issues and 
border violence, TOPD has increased efforts and expended scarce 
resources to reduce crime on the Nation to improve the quality of life 
for its residents and visitors. The Nation has sustained a loss of 
millions of dollars annually to needed manpower, increased public 
safety, health care, sanitation, theft and destruction of our property 
and lands from the relentless flow of illegal immigration. Equally 
devastating is the adverse impact on our cultural resources and 
traditions as our Tribal elders no longer gather ceremonial plants in 
the desert for fear of their safety. For example:

        <bullet>  In 2003, sixty-nine people died on the Reservation 
        crossing the border, leaving the Nation to pay for the burial 
        and related costs. The Nation pays for autopsy costs at 
        $1,400.00 per body out of tribal police funds.

        <bullet>  The Nation loses approximately $2 million annually 
        from its allocation of Indian Health Care funding due to 
        emergency health care treatment of undocumented immigrants 
        taken to our health clinic.

        <bullet>  The Nation is forced to address the 6 tons of trash a 
        day that is littered on the Nation's Reservation by fleeing 
        undocumented immigrants. This predicament has caused serious 
        environmental problems and contributes to the 113 open pit 
        dumps on the Nation's Reservation that need to be cleaned up.

    Homeland Security is clearly a federal responsibility. However, TOP 
has stretched its resources to the limit. To date, the Nation has spent 
more than $10 million dollars in tribal resources on Homeland Security 
issues and now spends over $3 million annually, over half the TOPD 
budget, in direct response to border related incidents. Despite the 
Nation's position on the front line of this crisis, we do not receive 
any funding from the federal government.
    v. increased border security costs are impacting other programs 
                           within the nation
    Many other areas on the Nation, such as our limited heath care 
clinic and ambulance services, have been similarly negatively affected 
by the increased homeland security expenses. Overall, it is estimated 
that the Nation expends an additional $4 million of its tribal 
resources annually on services related to border issues for a total of 
$7 million. Part of the expenditure relates to health care and 
environmental clean up services. When the Nation pays for federal 
responsibilities, we are unable to address much needed education, 
health care, housing, roads, infrastructure issues, to name a few. 
Below are a couple of key examples.

        <bullet>  In 2003, the Indian Health Service (IHS) Sells 
        Service Unit spent $500,000.00 on emergency health care 
        services to undocumented immigrants, for example, for those at 
        risk of dying from dehydration. These funds are not reimbursed 
        to IHS and result in the inability of certain tribal members to 
        receive health care services that are allocated for their 
        benefit.

        <bullet>  The Nation spends millions of dollars a year to pay 
        for the 6 tons of trash per day left by undocumented immigrants 
        and the Nation is faced with cleaning up the 113 open pit dumps 
        on the Reservation.

        <bullet>  758 homes on the Reservation (20% of all homes on the 
        Reservation) are without potable water and 1,393 (38% of all 
        homes) are without a sewer or water system. Many of the 
        residents at these homes use either hand-dug or agricultural 
        wells for drinking water and are exposed to contaminants such 
        as fecal coliform, arsenic and fluoride in excess of the 
        federal Safe Drinking Water Act standards. The total need to 
        construct suitable drinking water and waste water systems for 
        these homes is estimated at $24.4 million.

    The Nation has been forced to deal with homeland security and 
border issues because we must protect our lands and tribal members. The 
Nation's efforts are complemented by the USCBP, which has increased its 
presence on our lands. However, this is not without concern over 
reports that USCBP is harassing tribal members, creating unnecessary 
roads, and slow in the implementation of their duties to reach the 
level of trust required in developing a partnership with the Nation.
    TOPD is also assisted by Tribal Rangers, whose primary duties are 
to monitor the undeveloped areas of the Nation. Because the Rangers 
often confront UDAs, it has become necessary to enhance the Rangers' 
ability to formally assist TOPD Officers. This will enable TOPD 
Officers to handle other growing problems of human and drug smuggling 
and the accompanying crimes, gangs and youth violence. However, the 
Nation needs support for equipment and training to assist in the 
development or enhancement of the Tribal Ranger program. By supporting 
this program, Tribal Rangers will be able to provide more manpower 
resources to law enforcement and strengthen services to the community 
and surrounding areas.
vi. the tohono o'odham nation needs funding to address border violence 
                       and border security needs.
    We are thankful for the support from the Border Patrol and the 
Tribal Ranger program. However, the financial need is overwhelming and 
for the most part, the Nation has not received any significant federal 
funding to address our law enforcement/border security activities, 
notwithstanding 9-11. Therefore, the Nation respectfully assistance 
from the Committee to ensure that the Nation is consulted and an active 
partner in the development and implementation of federal border 
security initiatives headed up by the Department of Homeland Security 
(DHS). The Nation also seeks the Committee's support in securing 
legislative reform to authorize the direct funding of funding and other 
resources to support our efforts in providing homeland and border 
security for America.
    Under the DHS organic legislation, Indian Nations are not eligible 
to obtain direct funding for homeland security purposes. This barrier 
is particularly unfair to the Nation given our unique circumstances in 
protecting the 75-mile international border with Mexico on our 
Reservation and the increase in crime and violence as a result of the 
border issues. The lack of consultation and lack of access to direct 
funding has strained the Nation's Government-to-Government relationship 
with the United States placing us in a difficult and untenable position 
of having to react to policy decisions as opposed to proactively 
working together in a unified fashion with the proper respect accorded 
to the Nation's sovereign stat
    As explained above, the Nation is spending approximately $3 million 
annually to directly address these border security related needs and an 
additional $4 million related to the border security crisis. Our police 
department has stretched its resources beyond to provide border 
security, our health care dollars are siphoned to pay for emergency 
health care for undocumented immigrants, and our lands are littered 
with tons of garbage daily creating disastrous environmental and public 
health damage. The Nation has an identified a compelling and urgent 
need for more funds to assist us in meeting these challenges. 
Therefore, the Nation respectfully requests the Committee's support and 
assistance in securing funding in the FY 2007 Homeland Security 
Appropriation bill.
    In addition, the Arizona Department of Public Safety (DPS) 
currently has a significant backlog of cases from the Nation, which 
ultimately impacts the Nation and TOPD. The Nation submitted 58 cases 
to DPS in January 2006, of which 34 cases have been completed 
(analyzed, tested and processed) and returned back to TOPD. In February 
2006, the Nation submitted 54 cases to DPS and 32 were completed. 
However, that leaves 43 back logged cases. The total number of TOPD 
cases and related evidence submitted to DPS is significant in 
comparison to other Indian Country Law Enforcement Agencies as well as 
Federal counterparts and TOPD is second only to the Navajo Nation in 
submitting cases to DPS. The Nation is concerned that the backlog will 
negatively impact TOPD efforts to address crime. In addition, the 
Nation believes that DPS should be communicating directly with Indian 
Country Chiefs of Police and Tribal Officials on this matter rather 
than BIA Law Enforcement. TOPD has a very well established evidence 
management system administered by a full time Evidence Technician and 
is currently identifying funding to add additional staff to support 
that function.
    Funding will assist the Nation with our current efforts and allow 
us to enhance our training, planning, equipment and related border 
security efforts to keep people safe from the violence that often 
breaks out as a result of border crossings.
                             vi. conclusion
    In closing, on behalf of the Tohono O'odham Nation, I appreciate 
the opportunity to present this statement to the Committee and 
respectfully request the Committee's favorable consideration of the 
Nation's requests. If you have any questions, please do not hesitate to 
contact me at (520) 383-2028, or your staff can contact our legal 
counsel in Washington D.C., Shenan Atcitty at (202) 457-7128. Thank 
you.

                                 <all>

</pre></body></html>
